<html>
<title> - MEETING ELECTRICITY DEMAND IN THE WEST THROUGH RESPONSIBLE DEVELOPMENT OF ENERGY RIGHTS-OF-WAY ON FEDERAL LANDS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                       MEETING ELECTRICITY DEMAND
                          IN THE WEST THROUGH
                        RESPONSIBLE DEVELOPMENT
                         OF ENERGY RIGHTS-OF-WAY
                            ON FEDERAL LANDS
=======================================================================

                        JOINT OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                             joint with the

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, June 27, 2006

                               __________

                           Serial No. 109-57

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov



                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

28-556 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel

                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

               GEORGE P. RADANOVICH, California, Chairman
        GRACE F. NAPOLITANO, California, Ranking Democrat Member

Ken Calvert, California              Raul M. Grijalva, Arizona
Barbara Cubin, Wyoming               Jim Costa, California
Greg Walden, Oregon                  George Miller, California
Thomas G. Tancredo, Colorado         Mark Udall, Colorado
J.D. Hayworth, Arizona               Dennis A. Cardoza, California
Stevan Pearce, New Mexico            Vacancy
Cathy McMorris, Washington           Vacancy
  Vice Chair                         Nick J. Rahall II, West Virginia, 
Louie Gohmert, Texas                     ex officio
Vacancy
Richard W. Pombo, California, ex 
    officio
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                     GREG WALDEN, Oregon, Chairman
             TOM UDALL, New Mexico, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Wayne T. Gilchrest, Maryland         Neil Abercrombie, Hawaii
Chris Cannon, Utah                   Dan Boren, Oklahoma
John E. Peterson, Pennsylvania       Peter A. DeFazio, Oregon
  Vice Chair                         Jay Inslee, Washington
Thomas G. Tancredo, Colorado         Mark Udall, Colorado
J.D. Hayworth, Arizona               Dennis Cardoza, California
Jeff Flake, Arizona                  Stephanie Herseth, South Dakota
Rick Renzi, Arizona                  Nick J. Rahall II, West Virginia, 
Henry Brown, Jr., South Carolina         ex officio
Cathy McMorris, Washington
Richard W. Pombo, California, ex 
    officio
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Tuesday, June 27, 2006...........................     1

Statement of Members:
    Hayworth, Hon. J.D., a Representative in Congress from the 
      State of Arizona...........................................     4
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     3
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     2
    Udall. Hon. Tom, a Representative in Congress from the State 
      of New Mexico..............................................     4

Statement of Witnesses:
    Avery, James P., Senior Vice President--Electric, San Diego 
      Gas & Electric Company, San Diego, California..............    35
        Prepared statement of....................................    36
    Loock, James T., Director, Technical Services, Western 
      Electricity Coordinating Council, Salt Lake City, Utah.....    23
        Prepared statement of....................................    25
    Meyer, David H., Deputy Director, Office of Electricity 
      Delivery and Energy Reliability, U.S. Department of Energy, 
      Washington, D.C............................................     5
        Prepared statement of....................................     6
    Nelson, Laura, Ph.D., Energy Advisor, Office of Governor Jon 
      Huntsman, Salt Lake City, Utah.............................     9
        Prepared statement of....................................    11
    Smith, Robert, Manager, Transmission Planning and 
      Engineering, Arizona Public Service Company, Phoenix, 
      Arizona....................................................    14
        Prepared statement of....................................    16
    Willis, Dave, Coordinator, Sierra Treks, Outfitter, Ashland, 
      Oregon.....................................................    28
        Prepared statement of....................................    30


  JOINT OVERSIGHT HEARING ON ``MEETING ELECTRICITY DEMAND IN THE WEST 
  THROUGH RESPONSIBLE DEVELOPMENT OF ENERGY RIGHTS-OF-WAY ON FEDERAL 
                                LANDS''

                              ----------                              


                         Tuesday, June 27, 2006

                     U.S. House of Representatives

            Subcommittee on Water and Power, joint with the

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittees met, pursuant to call, at 10:07 a.m. in 
Room 1324, Longworth House Office Building. Hon. George 
Radanovich [Chairman of the Subcommittee on Water and Power] 
presiding.
    Present: Representatives Radanovich, Napolitano, Hayworth, 
Herseth, McMorris, Kildee, and Tom Udall.

STATEMENT OF THE HONORABLE GEORGE RADANOVICH, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good morning, and welcome to today's joint 
hearing of the Subcommittee on Water and Power, and the 
Subcommittee on Forests and Forest Health.
    Today's hearing is about making sure our consumers have 
access to reliable and affordable electricity supplies.
    Last month, we examined ways to improve management of our 
existing rights-of-way on Federal land, and we learned that 
there is much room for improvement. We will continue to call 
for a change in forest management on current rights-of-way, but 
today we turn our attention to future transmission 
opportunities.
    As in many water and power instances of the West, the 
numbers simply don't add up when it comes to electricity supply 
and demand. For example, my home State of California must bring 
in 1,000 megawatts of new capacity each year--and that doesn't 
count retirements--to meet a 2 percent historic growth rate. 
The old saying of ``Build it and they will come'' doesn't apply 
anymore because people will come anyway. So, we have an 
obligation to meet this new demand or we will repeat the 
disastrous 2001 energy crisis.
    Many in the West are doing their part to meet the region's 
demands. New generation is coming on line. Some new 
transmission will be built soon, but the bottom line is that we 
still have a long way to go.
    The energy bill signed into law last year set up a process 
to help us move in this direction. The energy bill required the 
designation of energy corridors through western Federal lands 
to help expedite new transmission while protecting the 
environment. We will hear today about how the Department of 
Energy is proactively carrying out the law and the public 
response to that effort.
    We will also hear about visionary transmission projects 
that could bring green power on line. The need for renewable 
power increases every year, yet in many cases there is no way 
to bring the supply to the demand, and the Frontier Line could 
be one such step in that direction.
    Four Governors have devoted considerable resources to 
making this project a reality. It could bring hundreds of 
millions of dollars to their economies and could also meet the 
green power needs of many Californians. This project has a long 
way to go, but the ultimate test will be how our Federal land 
agencies react to it since they will most likely travel over 
Federal land.
    Will they throw up every bureaucratic roadblock and stand 
with those who never want to build anything or will they 
recognize its true value and work with the states and consumers 
who need it?
    Today is an opportunity to move in a very positive 
direction. We have some very qualified individuals here who 
know firsthand what it takes to keep the lights on, and I look 
forward to your testimony and to hearing from our Committee 
colleagues.
    Before I turn to Mrs. Napolitano, I want to thank 
Congressman Walden, our colleague from Oregon and the Chairman 
of the Forest and Forest Health Subcommittee, for his work on 
the hearing. He regrets that he cannot attend today but as 
Vice-Chairman of the Energy and Commerce Oversight and 
Investigations Subcommittee, he is chairing a hearing on 
children's issues.
    Now I recognize the Ranking Member, Mrs. Napolitano. Grace.
    [The prepared statement of Mr. Radanovich follows:]

        Statement of The Honorable George Radanovich, Chairman, 
                    Subcommittee on Water and Power

    Today's hearing is about making sure our consumers have access to 
reliable and affordable electricity supplies.
    Last month, we examined ways to improve management of our existing 
electricity rights-of-way on federal land--and we learned that there's 
much room for improvement. We will continue to call for change in 
forest management on current rights-of-way, but today we turn our 
attention to future transmission opportunities.
    As in many water and power instances of the West, the numbers 
simply don't add up when it comes to electricity demand and supply. My 
home State of California must bring 1,000 megawatts of new capacity 
each year--and that doesn't count retirements--to meet a 2% historic 
growth rate. The old saying of ``build it and they will come'' doesn't 
apply anymore--they will come anyway. So, we have an obligation to meet 
this new demand or we will repeat the disastrous 2001 energy crisis.
    Many in the West are doing their part to meet the region's demands. 
New generation is coming on-line. Some new transmission will be built 
soon. But, the bottom line is that we still have a long way to go.
    The Energy bill signed into law last year set up a process to help 
us move in this direction. The Energy bill required the designation of 
energy corridors through western federal lands to help expedite new 
transmission while protecting the environment. We will hear today about 
how the Department of Energy is proactively carrying out the law and 
the public response to that effort.
    We will also hear about visionary transmission projects that could 
bring green power on line. The need for renewable power increases every 
year, yet in many cases there's no way to bring the supply to the 
demand. The Frontier Line is one such way to do that. Four governors 
have devoted considerable resources to make this project a reality. It 
could bring hundreds of millions of dollars to their economies and 
could help meet the green power needs of many Californians. This 
project has a ways to go, but the ultimate test will be how our federal 
land agencies react to it since it will most likely travel over federal 
land: will they throw up every bureaucratic roadblock and stand with 
those who never want to build anything, or will they recognize its true 
value and work with the states and consumers who need it?
    Today is an opportunity to move in very positive directions. We 
have some very qualified individuals here who know firsthand what it 
takes to keep the lights on. I look forward to their testimony and to 
hearing from our Committee colleagues.
                                 ______
                                 

 STATEMENT OF THE HONORABLE GRACE NAPOLITANO, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Napolitano. Thank you, Mr. Chairman. It is a pleasure 
to welcome the witnesses today, and I look forward to hearing 
the testimony.
    Mr. Chairman, about five years ago, as you well know, 
California experienced statewide rolling blackout that left 
over 1.5 million of our Californians without power, and we are 
now in summer, and we in California, as well as in other parts 
of the nation, may be faced with a threat once more.
    This transmission capacity is a key part of ensuring there 
is sufficient supply of electricity that is going to be 
available to our users. However, conservation is another 
element of this, and I am not hearing as much on this in some 
of the testimony, but I cannot help but think that our needs 
for more transmission corridors might be reduced if we had 
meaningful energy conservation programs.
    We will be talking about the development of energy 
corridors on public lands, and I think that it is important to 
point out that public lands are just that--public. Part of 
being responsible for what we do with these public lands 
involves asking the public what concerns they have over the use 
of public lands, and if private lands are contemplated that 
Congress respects the private concerns of the public and the 
tribes.
    That is why it is very appropriate that we are having the 
hearing today. Currently the Department of Energy and the 
Bureau of Land Management are lead agencies on one of the 
largest designations of energy transmission corridors that we 
have ever seen. In accordance with the National Energy Policy 
Act of 2005, both are carrying this out with unprecedented 
speed, and I have some concerns about that speed.
    While this is going on, it is very critically important 
that we not lose sight of our responsibility to again involve 
the public in the process as much as possible as these lands 
belong to all American citizens, and we should make every 
effort to encourage their involvement.
    This is not a process to be shortcut as work proceeds on 
the Westwide energy corridors, the pace, and we should be very 
deliberate and transparent in our decisions to site these 
corridors, and ensure that we are indeed focusing our resources 
on placing the corridors where they are actually critically 
needed.
    There in the process we also need to honor our past 
commitments and avoid actions that would harm those lands which 
we have deemed to deserve our protection.
    I do look forward to hearing from today's witnesses on 
these very important issues, and thank you so very much, Mr. 
Chairman.
    Mr. Radanovich. Thank you very much, Mrs. Napolitano.
    I now recognize the gentleman from New Mexico, Mr. Udall, 
Ranking Member of the Forest and Forest Health Subcommittee, 
for an opening statement.

   STATEMENT OF THE HONORABLE TOM UDALL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Tom Udall. Thank you, Mr. Chairman, and I will just 
make a couple of comments.
    The first thing I would like to do is echo the comment of 
the Ranking Member here on conservation. It is absolutely clear 
to me that we need to do a lot more on the conservation front 
and energy efficiency front. America uses twice as much energy 
as our friends over in Europe, and I think we could do a lot 
better job there.
    I am also worried about the air quality impacts. We all 
want to have clean air. This proposal, I think, is to generate 
electricity in Wyoming, and move it out to California, and I 
just wonder is it fair to release carbon dioxide and mercury 
and other contaminants in Wyoming when this pollution would 
never be allowed in California.
    The last worry that I just want to highlight that I will be 
asking some of the panel members about has to do with coal-
fired plants. We have not come up with clean coal yet. We do 
not have that technology, and we are embarking around the world 
with 1,200 coal-fired plants in the next five or 10 years, 
which is going to have a dramatic impact on CO2 emissions, and 
then on global warming. So it worried me a lot that we are 
headed down this path without having the technology in place.
    So with that, Mr. Chairman, I would ask permission to put 
my statement in the record and look forward to hearing from the 
panelists.
    Mr. Radanovich. Without objection, so ordered, and I thank 
the gentleman from New Mexico.
    I now recognize the gentleman from Arizona, Mr. Hayworth.

 STATEMENT OF THE HONORABLE J.D. HAYWORTH, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Hayworth. Mr. Chairman, thank you for holding the 
hearing, and I am pleased to see a good Arizonan here to offer 
the perspective of my home state, and I commend you for holding 
this joint hearing. I look forward to hearing from the 
witnesses.
    I yield back.
    Mr. Radanovich. Thank you, Mr. Hayworth.
    Would you like to do an opening statement, Kathy? OK, very 
good.
    With that, I want to welcome our panel here today. I want 
to thank you very much for traveling to be here today and give 
us your valuable information on this subject. What I will do--
well, first of all, I will introduce you, and then after that 
ask each one of you to speak, and then we will open up the 
panel for questions from the dais here.
    Joining us here today is Mr. David Meyer, Deputy Director 
of the Office of Electricity Delivery and Energy Reliability 
from the U.S. Department of Energy in Washington, D.C. Mr. 
Meyer is accompanied by Mr. Ray Brady from the Bureau of Land 
Management; Dr. Laura Nelson, Energy Policy Advisor in the 
Office of Governor Jon Huntsman, Salt Lake City, Utah; Mr. 
Robert Smith; Manager of Transmission Planning and Engineering, 
Arizona Public Service in Phoenix, Arizona; Mr. Jay Loock, 
Director of Technical Services at the Western Electricity 
Coordinating Council in Salt Lake City, Utah; Mr. Dave Willis, 
Coordinator of Sierra Treks, and Outfitter from Ashland, 
Oregon; Mr. James Avery, the Senior Vice President--Electric, 
San Diego Gas and Electric Company from San Diego, California.
    Ladies and gentlemen, welcome again to the Subcommittee, 
and Mr. Meyer, we will begin with you, and again each one of 
you have five minutes to address the panel. Please know that 
your written testimony is submitted in the record in full, so 
feel free to be extemporaneous in your remarks if you would 
like.
    We are going to use the lights here. It is a typical five-
minute system. It works like traffic lights. Green is go, 
yellow is speed up, and red is stop. So I will let you, if you 
would use that as a rule of thumb, we will begin with you, Mr. 
Meyer, and again welcome to the Subcommittee.

    STATEMENT OF DAVID H. MEYER, DEPUTY DIRECTOR, OFFICE OF 
ELECTRICITY DELIVERY AND ENERGY RELIABILITY, U.S. DEPARTMENT OF 
 ENERGY, WASHINGTON, D.C.; ACCOMPANIED BY RAY BRADY, BUREAU OF 
        LAND MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Meyer. Good morning, Mr. Chairman, and Committee 
Members.
    I am David Meyer, Deputy Director of the Permitting, Siting 
and Analysis Division in the Department of Energy's Office of 
Electricity Delivery and Energy Reliability.
    I appreciate the opportunity to testify before you today 
about energy corridors on Federal lands, and I won't repeat the 
comments that have already been made about the importance of 
these corridors in terms of meeting consumers' future 
electricity and other energy requirements.
    Rather, I will move directly to reporting to you on where 
we stand now on application of one of the mechanisms in the 
Energy Policy Act of 2005.
    Now, for the designation of corridors, particularly 
corridors in the West under Section 368, this section of the 
Act directed the Departments of Energy, Interior, Agriculture, 
Commerce and Defense to designate multi-purpose energy 
corridors on Federal lands in the western states by August 
2007, and in the rest of the Nation by August 2009.
    The Departments, aided by Argonne National Laboratory, have 
held scoping meetings in the 11 western states, gathered and 
integrated relevant data from numerous data bases, developed 
alternatives to be considered in a draft programmatic 
environmental impact statement, and developed a preliminary 
draft map showing potential corridors.
    Our project team seeks to accomplish two overarching goals 
with this project. One is to support the planning and 
development of needed new energy infrastructure in the West, 
especially electric transmission. The other is to streamline 
and expedite the process for siting and permitting energy 
facilities on Federal lands.
    The interagency team is committed to avoiding designation 
of corridors in sensitive areas wherever possible. Much of the 
environmental analysis required by the National Environmental 
Policy Act will be completed within the programmatic phase of 
this process. This will help to streamline the permitting and 
siting of energy facilities on Federal lands without 
compromising the quality of our environmental decisions.
    As required by the Energy Policy Act, the project team will 
propose a specific center line with compatible uses for each 
energy corridor. The team will prepare a draft programmatic 
environmental impact statement that will propose for public 
comment corridors where transmission lines or pipelines may be 
built in the future.
    Additional environmental analysis will be done in the 
future when individual projects are proposed for siting in 
designated corridors with opportunities for public involvement 
and input. This will ensure protection of wildlife habitat, 
recreation opportunities, and other values of the land within 
and adjacent to corridor.
    The recently published map of proposed corridors was 
released to provide the public an early opportunity to review 
potential corridors that may be designated through the 
environmental impact statement process. As the process 
continues, the agencies will refine and adjust the map as 
necessary, and release an updated and more precise map when the 
draft programmatic environmental impact statement is released.
    That impact statement will fully explain the alternatives 
under consideration by the agencies. Comments on the map are 
due by July 10, 2006, via DOE's website or regular mail.
    In conclusion, Mr. Chairman, the Department of Energy and 
the other agencies look forward to working with your and your 
colleagues to expedite and coordinate processes for permitting 
and siting of energy facilities in energy corridors on Federal 
lands. We need to do this to increase our reliance on domestic 
energy supplies and to improve our energy infrastructure.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Meyer follows:]

 Statement of David H. Meyer, Deputy Director, Permitting, Siting and 
     Analysis Division, Office of Electricity Delivery and Energy 
                 Reliability, U.S. Department of Energy

    Good morning, Mr. Chairman and Committee Members, I am David Meyer, 
Deputy Director of the Permitting, Siting, and Analysis Division in the 
Department of Energy's Office of Electricity Delivery and Energy 
Reliability. I appreciate the opportunity to testify before you today 
on the subject of energy corridors on Federal lands. Energy corridors 
are vital links for delivering energy supplies to the Nation's 
consumers. As you and many of your colleagues have recognized, it is of 
little benefit to increase domestic energy production capacity if we 
are not able to deliver the output to where consumers need it.
    The Department of Energy (DOE) is committed to supporting the 
development and maintenance of a reliable and robust energy 
infrastructure. We appreciate your help in passing the Energy Policy 
Act of 2005 (EPACT) to promote reliability and enhance our reliance on 
domestic energy sources.
    From the early days of this Administration, the President's 
National Energy Policy has insisted that we can meet the Nation's 
energy needs while also protecting the environment, and that we do not 
need to make painful choices between these two important objectives. 
The Energy Policy Act restates this view. In designating energy 
corridors on Federal lands, we intend to demonstrate the practicality 
of this perspective.
    Rapid economic and population growth in many parts of the Nation 
have increased the demand for energy supplies and outpaced the 
development of new energy infrastructure. At the same time, local 
community opposition and environmental concerns have frequently made it 
more difficult to site needed new facilities. By enacting EPACT, the 
Congress created important new mechanisms to streamline and expedite 
permitting and siting processes for such facilities. My purpose today 
is to report on where we stand today on one of those mechanisms: that 
is, designation of energy corridors in the West under section 368 of 
the Act.
    Specifically, section 368 of the Energy Policy Act directed the 
Departments of Energy, Interior, Agriculture, Commerce, and Defense to 
designate multipurpose energy corridors on Federal lands--in the 
western states by August 2007 and in the rest of the Nation by August 
2009. The central purpose was to perform the environmental and other 
analyses needed to identify areas on Federal lands suitable for use as 
energy corridors, and ensure that these corridors will be available for 
such use if needed in future years. Since the Act's enactment, the 
Department of Commerce has chosen to participate as a consulting 
agency. The other four Departments, aided by Argonne National 
Laboratory, have held scoping meetings in the eleven western states, 
gathered and integrated relevant data from numerous data bases, 
developed alternatives to be considered in a draft programmatic 
environmental impact statement (DPEIS), and developed a preliminary 
draft map showing potential corridors.
    The four Departments created a project team consisting of DOE's 
Office of Electricity Delivery and Energy Reliability as the lead, the 
Bureau of Land Management (BLM) as a co-lead, and the USDA Forest 
Service and the Department of Defense as cooperating agencies. The 
Department of the Interior's Fish and Wildlife Service and the State of 
California are also cooperating entities. The Department of Commerce 
has participated in a consulting role.
    The project team seeks to accomplish two overarching goals with 
this project. One is to support the planning and development of needed 
energy infrastructure in the West, especially electric transmission. 
The other is to streamline and expedite the process for siting and 
permitting energy facilities on Federal lands. ``Pre-approval'' of 
corridors designated through this process will facilitate the siting of 
new energy infrastructure needed to meet growing energy demands while 
protecting the environment. The interagency project team is committed 
to avoiding designating corridors in sensitive areas wherever possible. 
Much of the environmental analysis required by the National 
Environmental Policy Act (NEPA) will be completed within the 
programmatic phase of this process. This will help to streamline the 
permitting and siting of energy facilities on Federal lands, without 
compromising the quality of our environmental decisions.
    The project team has solicited and received extensive public input 
on the designation of section 368 corridors, and is continuing to work 
extensively and cooperatively with other Federal agencies, Indian 
Tribes, States, and local governments, and the public. Overall, DOE 
believes that the governors of the affected states and the majority of 
affected Tribes were satisfied with these procedures and with the 
preliminary draft map of section 368 energy corridors we released on 
June 9 of this year. To date no State has raised major objections or 
questions concerning the draft map, although the comment period on it 
has not yet closed. We look forward to continuing to work with the 
States in this process.
    As required by EPACT, the project team will propose a specific 
centerline, width, and compatible uses for each energy corridor. The 
team will prepare a DPEIS that will propose for public comment 
corridors where transmission lines or pipelines may be built in the 
future. Additional environmental analysis will be done in the future 
when individual projects are proposed for siting in designated 
corridors, with opportunities for public involvement and input. This 
will further ensure protection of wildlife habitat, recreation 
opportunities and other values of the lands within and adjacent to 
corridors.
    The programmatic environmental impact statement (PEIS) process is 
critical to implementation of section 368 because it will culminate in 
the issuance of coordinated Records of Decision that the participating 
agencies will incorporate into their respective land use and resource 
management plans. With these changes, the plans will specify the energy 
corridors where transmission lines or pipelines may be built in the 
future. Issuing coordinated Records of Decision involving several 
Departments and agencies will set an important and remarkable 
precedent.
    Since the enactment of EPACT in August 2005, a great deal of work 
has been done by the Agencies to implement section 368. Here, I will 
cite a few highlights:
    <bullet>  Public scoping meetings were held in each of the 11 
western States from October to November 2005.
    <bullet>  The four Agencies agreed upon a Memorandum of 
Understanding (MOU) to help streamline the siting of energy facilities 
in designated corridors, and sent it to Congress in February 2006.
    <bullet>  A preliminary map of draft energy corridors on Federal 
lands was posted for comment on DOE's 368 website, http://
corridoreis.anl.gov, in June 2006.
    <bullet>  Discussions are continuing with Tribes, States and 
Federal agencies regarding possible energy corridors on Federal lands
    I attach below a more detailed outline of consultation and 
coordination activities to date, along with some key upcoming events.
    The recently published map of proposed corridors was released to 
provide the public an early opportunity to review potential corridors 
that may be designated through the PEIS process. As the process 
continues, the Agencies will refine and adjust the map as necessary--
and release an updated and more precise map when the DPEIS is released 
(about December 31, 2006). The DPEIS will fully explain the 
alternatives under consideration by the Agencies. Comments on the June 
9 map are due by July 10, 2006 via DOE's 368 website, http://
corridoreis.anl.gov, or regular mail.
    As envisioned by Congress, section 368 of EPACT seeks to enhance 
the delivery of oil, gas, hydrogen and electricity and to strengthen 
the electricity transmission grids by improving reliability, decreasing 
congestion and enhancing transmission capability. The corridors on 
Federal lands will be designed to accommodate multiple infrastructure 
projects, including transmission lines and gas, oil, and hydrogen 
pipelines.
    In conclusion, Mr. Chairman, the Department of Energy and the other 
Agencies look forward to working with you and your colleagues to 
expedite and coordinate the processes for permitting and siting of 
energy facilities in energy corridors on Federal lands. We need to do 
this to increase our reliance on domestic energy supplies and improve 
our energy infrastructure.
    Thank you. I look forward to your questions.

                                APPENDIX
Report Development
    <bullet>  Public scoping meetings held in each of the 11 western 
states from October to November, 2005
    <bullet>  Summary of Public Scoping Comments posted on website, 
January 31, 2006
    <bullet>  MOU (EPACT, secs. 368/372) with the four agencies to 
streamline the siting process--signed and sent to Congress, February 
2006
    <bullet>  Meeting with NEPA staff from all four agencies to discuss 
the outline of the PEIS and varying cultural differences of how this 
product should look, May, 2006
    <bullet>  Preliminary draft of energy corridors on Federal Lands 
posted on DOE's 368 website, http://corridoreis.anl.gov, June 9, 2006
    <bullet>  Ongoing updates to map (in response to comments) until 
field analysis for PEIS begins
    <bullet>  Ongoing coordination with DOE's sec. 1221 team re 
identification of congested areas and potentially relevant corridors
    <bullet>  Ongoing discussions with Tribes, States and Agencies 
regarding possible energy corridors on Federal Lands
    <bullet>  Ongoing discussions with NEPA working groups on energy 
corridor designation (tribal, cultural, geospatial, other)
    <bullet>  Ongoing work to prepare and publish DPEIS
    <bullet>  Publication of DPEIS by December 31, 2006
    <bullet>  Comments period on DPEIS, January--early March 2007
    <bullet>  Incorporate comments as appropriate and prepare the final 
PEIS (March 2007--June 2007)
    <bullet>  Issue Record of Decision showing final corridors, and 
incorporate corridors into the land use plans and resource management 
plans for specific BLM areas and National Forests (August 2007).
    Work on planning energy corridors on Federal lands in the rest of 
the U.S. (including Alaska and Hawaii) has not yet begun. A report to 
Congress on that subject is due August 2009.
    The roles of the participating Departments and Agencies are 
summarized below:
    <bullet>  The Department of Energy's Office of Electricity Delivery 
and Energy Reliability has the lead for this project. The Department 
has experience preparing environmental impact statements both as an 
individual agency and in partnership with other agencies in relation to 
Presidential Permits for international transmission facilities and 
authorizations for electricity exports. The Department also provides 
general energy knowledge and expertise for this project.
    <bullet>  The Bureau of Land Management (BLM) is the co-lead and 
has experience preparing PEISs, both as an individual agency and in 
partnership with other agencies. The most recent example is the Wind 
Energy PEIS, prepared with the Department of Energy. The BLM is also 
preparing a PEIS for development of oil shale and tar sand resources on 
public lands.
    <bullet>  The Department of the Interior's Cooperating Agency Rule 
allows other Federal agencies as well as State, Tribal and local 
governments to become full partners in preparing the PEIS. This enables 
Interior's Fish and Wildlife Service to be a cooperating agency.
    <bullet>  The Department of Agriculture's Forest Service is a 
Cooperating Agency in the energy corridor PEIS. The Forest Service is 
working closely with the other agencies to ensure that proposed energy 
corridors are compatible with land management plans' desired conditions 
and objectives for the affected National Forests.
    <bullet>  The Department of Defense is a Cooperating Agency in the 
energy corridor PEIS and has extensive experience managing its training 
and testing lands and military installations. The Department is working 
closely with the other Federal agencies to ensure that proposed energy 
corridors are compatible with its national security mission.
    <bullet>  In California, the Energy Commission has led an 
Interagency PEIS workgroup comprised of multiple Federal and state 
agencies. The Interagency workgroup has assisted the Agencies by 
reviewing potential corridors and providing recommendations, system 
information, and potential environmental and land use impact 
information to DOE for consideration in the DPEIS.
    <bullet>  Argonne National Laboratory is under contract to DOE to 
help with the PEIS process.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Meyer. Appreciate your 
testimony.
    Next is Dr. Laura Nelson, the Energy Policy Advisor for the 
Office of the Governor in Salt Lake City, Utah. Welcome to the 
Subcommittee. You may begin.

  STATEMENT OF LAURA NELSON, ENERGY POLICY ADVISOR, OFFICE OF 
          GOVERNOR JON HUNTSMAN, SALT LAKE CITY, UTAH

    Ms. Nelson. Thank you. Good morning, Mr. Chairman, Ranking 
Member Napolitano, Members of the Subcommittee, and ladies and 
gentlemen. It is my pleasure to be here today and have this 
opportunity to provide this testimony.
    My name is Dr. Laura Nelson and I am the Energy Advisor to 
Utah Governor Jon Huntsman, Jr. My testimony today is being 
provided on behalf of the Frontier Line Board, which is 
comprised of representatives of the Governors' offices of Utah, 
Nevada, Wyoming, and California. However, I do want to state 
for the record that my testimony represents the specific view 
of the Utah Governor's office.
    Mr. Chairman, the Subcommittee asked us to discuss how we 
can meet the electricity demand in the West through responsible 
development of energy rights-of-way on Federal lands. Now, I am 
not going to respond to this theoretically, but rather in terms 
of a specific groundbreaking electricity infrastructure 
project, which is known as the Frontier Line that is now being 
developed in the West.
    As my written testimony details, my Governor and those of 
California, Nevada, Wyoming and Arizona are working to 
encourage the private sector to develop a multi-gigawatt 
transmission line or a series of lines that would allow fast-
growing load centers--they are in California, Utah, Arizona and 
other states--to tap into the vast renewable and clean coal 
resources in the region.
    We fundamentally believe that when this project is 
completed, that it will be the largest single clean energy 
enabling infrastructure project ever built in the American 
West. In addition to helping our citizens access fast, clean 
energy resources with which our region is blessed, it will also 
strengthen our grid's reliability which will help us to avoid 
the economically devastating outages such as those that were 
experienced in the 2000 and 2001 crisis.
    It will also strengthen our nation's energy and national 
security by allowing us to rely more on energy that is produced 
right here in North America and depend less on energy that is 
imported from increasingly volatile sources. It is a 
fundamental part of keeping energy prices as low as possible, 
especially for the millions of low-income families who in the 
face of rising energy prices are ever increasingly faced with 
the choice--food or fuel, and it will help drive down the cost 
of cutting-edge technologies, those that have been noted here 
today, and envisioned in EPACT, such as coal gasification, and 
there will be revolutionary environmental and social benefits 
to our citizens from the development of these technologies.
    The Frontier project right now is moving forward very 
rapidly. We are currently engaged in a feasibility study with 
the utilities that are in our four states, and a conceptual 
plan is being conducted.
    So what can the Federal government do to assist western 
states in developing a project like this? Well, let me state 
first that designating energy corridors on Federal lands, the 
process that is currently underway as a result of EPACT Section 
368 is certainly a strong step in that direction.
    Mr. Chairman, we are still in the process of studying the 
preliminary draft maps that were released by DOE as are wide 
range of stakeholders in our state. However, I can say that our 
states do believe that the effort to designate the corridors 
will help increase the regulatory certainty upon which energy 
infrastructure investments depend. That is a critical goal for 
our entire region, and we believe further that successful 
completion of the 368 process will be essential for the 
development of interstate transmission projects like the 
Frontier Line.
    Our Governors, as well as the WGA, have noted that there 
have been difficulties in siting energy infrastructure. 
However, I want to state that those are not usually the result 
of problems within the states, but often because of 
difficulties in siting across Federal lands.
    Now, the regulatory processes involved with siting across 
regulatory lands are in the public interest, but we believe 
that if we have greater certainty around those regulatory 
processes, that that will benefit both developers and the 
environment.
    I want to note that my State of Utah is in fact 
fundamentally committed to balancing the interest of the 
environment, the economy, and energy development, and we do, as 
I stated, believe that all of these interests can be better 
served if there is greater certainty in the regulatory process.
    In summary, America's energy generation and transmission 
grid is the single most complicated system our society has ever 
constructed, and for the most part people don't even notice it. 
But it is fundamental. It helps us to enjoy the standard of 
living that we currently have. It supports our quality of life. 
It allows us to get up in the morning, make coffee if we chose 
to, to go to work, educate our children, and to keep our 
families safe. It is truly the lifeblood of our society, our 
economy, and our nation. I would be happy to take questions 
when it is convenient.
    [The prepared statement of Ms. Nelson follows:]

                   Statement of Laura Nelson, Ph.D., 
           Energy Advisor to Utah Governor Jon Huntsman, Jr.

    Good morning, Mr. Chairman, Ranking Member Napolitano, Members of 
the Subcommittee and ladies and gentlemen.
    My name is Dr. Laura Nelson and I am Energy Advisor to Utah 
Governor Jon Huntsman, Jr.
    I am pleased to be here this morning. My testimony is being 
provided on behalf of the Frontier Line Board, which is comprised of 
representatives of the Governors' offices of Utah, Nevada, Wyoming and 
California. However, for the record, let me state this testimony 
represents the specific views of the Utah Governor's office.
    I would ask that my full testimony be entered into the record.
    The Subcommittee has asked the witnesses in this hearing to respond 
to this question: how can we meet the electricity demand in the West 
through responsible development of energy rights-of-way on federal 
lands?
    Mr. Chairman, I will answer that question not in theoretic terms, 
but rather in terms of a specific, groundbreaking electricity 
infrastructure project, known as the ``Frontier Line,'' now being 
developed for the West.
    But before I provide that input, let me say this.
    Any time the Federal Government engages in processes to expedite 
development on Federal lands, those processes are going to be 
controversial. Thus, with regard to electricity infrastructure, I think 
it is appropriate to consider why we are pursuing what will sometimes 
be a difficult approach.
    America's energy generation and transmission grid is the single 
most complicated system our society has ever constructed. The grid is 
also practically invisible to the great majority of your constituents 
and to most Americans.
    Few things, though, are more central to our standard of living and 
supporting the quality of life in this country. The grid allows us to 
make our morning coffee, to get to work, to educate our children, to 
keep our families safe, to save lives and heal the sick, to create jobs 
and make our economy the envy of the world, and to keep our environment 
clean.
    It is truly the lifeblood of our society, our economy and our 
nation.
    Of course, most people don't notice the grid until something goes 
wrong and the lights go out. That's when we, our governors and your 
offices, are flooded with calls from distressed citizens.
    Preventing those service interruptions must be our number-one 
policy goal. Disruptions in service adversely impact our business, our 
economy and our daily lives. Some circumstances can, in fact, lead to 
more catastrophic events where people are physically injured or suffer 
inordinate losses.
    A more robust grid can help ensure that we are positioned to avoid 
to a greater extent the possibility of the blackouts and brownouts that 
our region endured in 2000-2001. In the view of my Governor's office, 
it is imperative that we make it the utmost priority to pursue polices 
and developments that support this objective.
    We also need a stronger grid system for many other compelling 
public policy reasons.
    <bullet>  A more robust grid increases our energy and national 
security. An enhanced grid will allow us to have greater reliance on 
and utilization of energy that is produced right here in North America. 
We will have to depend less on energy imported from increasingly 
dangerous and volatile sources.
    <bullet>  A more robust grid will allow our citizens to access the 
vast clean energy resources with which our region is endowed. The West 
has significant opportunities for increased development of solar, wind, 
geothermal, biomass and clean coal resources. Most of these resources 
are remotely located from load centers and must have their power 
delivered via wire to consumers. Without an adequate grid, these clean 
energy resources are stranded and consumers are denied access to the 
clean resources that are increasingly demanded.
    <bullet>  An enhanced grid is a fundamental part of keeping energy 
prices as low as possible. This is particularly important for the 
millions of lower-income families who, in the face of rising energy 
prices, are increasingly faced with this stark choice of ``food or 
fuel.''
    <bullet>  Overall, a more robust grid will help to drive down the 
cost of new, cutting-edge technologies that can deliver revolutionary 
environmental and social benefits to our citizens. It will help us 
develop more renewable power plants, more hybrid fossil-renewable 
systems, and more clean coal generation facilities, such as 
gasification, liquefaction and polygeneration facilities. Certainly, 
those on Wall Street will note that greater investment in transmission 
capacity is a prerequisite to increased investment in most new baseload 
clean energy technologies.
The Frontier Line Vision
    In the view of my Governor and of his colleagues from Wyoming, 
Nevada and California, the Frontier Line will help us achieve these 
goals. It also represents a collective vision of our Governors to 
encourage the construction of what would be the single largest clean-
energy enabling infrastructure project ever built in the American West.
    This vision for the Frontier Line had its roots in a multi-year 
effort to examine the potential benefits of a more robust regional 
electricity grid for the West. That effort was known as the Rocky 
Mountain Area Transmission Study (RMATS) and was led by the States of 
Utah and Wyoming.
    In short, the RMATS study found that a project like the Frontier 
Line could generate annual consumer and generator benefits to the 
region of between $926 million to $1.7 billion based on natural gas 
prices lower than what we are expecting to experience going forward. 
The study indicates that California consumers alone stand to 
potentially benefit by $325 million to nearly $400 million annually.
    Since the RMATS study was completed, other experts have done 
similar analyses that showed possible benefits to the region of 
significantly above these initial estimates.
    The RMATS findings generated considerable discussion among our 
governors resulting in the concept of the Frontier Line which was 
unveiled by the Governors of Utah, Wyoming, Nevada and California in 
April 2004.
    Their vision was to encourage the construction by the private 
sector of a multi-gigawatt transmission line, or series of lines, that 
would allow fast-growing load centers in California, Nevada, Utah, and 
other states to tap into the vast renewable and clean coal resources 
across the region of these states. It promulgated the vision of how 
transmission would be planned and built in the West to support our ever 
growing and vital economies. It has spawned the philosophy and the 
perpetuation of regional planning of transmission development as a 
necessary prerequisite for realizing our mutual goals of greater energy 
security and improved electric reliability.
    Additional transmission infrastructure is seriously needed by our 
region. Using a historic growth rate of 2% per year, California must 
add at least 1,000 MW of new capacity each year, net of retirements, 
into the foreseeable future. Many theorize that it is unlikely that the 
West Coast and the Southwest region will be able to meet their rapidly 
growing demand for power without tapping into other regional resources. 
Additionally, the rapidly growing population centers in Nevada and Utah 
are likely to need greater access to affordable and reliable 
electricity resources from within their states and through energy 
imports from other states in the region.
    Resource-rich states such as Wyoming are anxious to utilize their 
expansive resource base to develop abundant renewable and clean coal 
power supplies for export. A limiting factor to additional expansion 
that would benefit all consumers in the West is lack of sufficient 
transmission.
    Our Governors agreed that interconnecting these regions served the 
public interest in terms of meeting consumer demand, promoting resource 
diversity, pushing clean energy technologies forward, strengthening our 
region's energy and increasing our nation's energy security.
Where We Are Today
    In April of this year our States reached agreement with a group of 
investor-owned utilities that provide service to territories in our 
four states to conduct a highly detailed feasibility study and 
conceptual plan for the Frontier Line. This study is now underway, and 
Mr. Chairman, I would ask that the joint letter between these utilities 
and our Governors' offices outlining this agreement be entered into the 
record.
    Under the agreement, the utilities formed a ``Partnership'' 
comprised of the following companies:
    <bullet>  Pacific Gas & Electric Company
    <bullet>  San Diego Gas & Electric
    <bullet>  Southern California Edison Company
    <bullet>  Sierra Pacific Power Company
    <bullet>  Nevada Power Company
    <bullet>  Rocky Mountain Power and Utah Power, both divisions of 
PacifiCorp, which is itself part of the MidAmerican Energy Holdings 
Company.
    The utility Partnership is now known as the ``Western Regional 
Transmission Expansion Partnership'' and is considering the benefits to 
the states involved in the Frontier Line in coordination with utility 
representatives from two other states in an effort to provide a more 
comprehensive evaluation of the benefits of broader regional 
transmission objectives.
    The utilities that have engaged with the Frontier Line Partnership 
in this broader coordinated effort on transmission planning are Arizona 
Public Service (APS) and Public Service Company of New Mexico (PNM). 
APS is currently pursuing its own project, The TransWest Express, which 
we view as a highly complimentary transmission project to the Frontier 
Line.
    In short, it is the Frontier Line Board's view that the Frontier 
Line will help create a new paradigm for how energy infrastructure can 
be planned and built and that this is necessary to accelerate the 
development of new, advanced clean energy technologies making America 
stronger, more energy independent and more economically competitive on 
a global basis.
    It also will help us more rapidly reach a goal that I believe is 
shared by virtually all members of the Subcommittee: achieving a 
workable, common sense balance between environmental conservation and 
economic growth.
    Mr. Chairman and members of the Subcommittee, I have included at 
the end of my full testimony:
    <bullet>  A copy of the Memorandum of Understanding between our 
Governors that launched this project; a historic perspective on efforts 
to expand the West's transmission grid;
    <bullet>  A copy of the Letter of Agreement between our Governors' 
offices and the Frontier Line Partnership investor-owned utilities;
    <bullet>  Detail on the evolution of this project;
    <bullet>  The reasons why our Governors believe that a project like 
the Frontier Line is needed; and
    <bullet>  A listing of the specific project criteria developed by 
our four Governors' offices that we used as a guide in moving this 
project forward.
Comments On The Section 368 Process
    Let me get to the question you posed today--how can meet the 
electricity demand in the West through responsible development of 
energy rights-of-way on federal lands?
    As you know, federal agencies such as the Department of Energy, the 
Department of Interior's Bureau of Land Management, the USDA Forest 
Service, and the Department of Defense are working on two processes as 
directed by Congress to designate energy corridors in the West for 
expedited siting of energy infrastructure projects. I will limit my 
remarks today to the ``Section 368 process,'' which is the subject of 
this hearing.
    In general, our States applaud the Congress and the Administration 
for taking on the task of designating such corridors through federal 
lands.
    We are still studying the preliminary draft maps that were recently 
released by DOE, as are a wide range of stakeholders in our States.
    However, I can say at this stage that our States believe the effort 
to designate these corridors will help increase the regulatory 
certainty upon which energy infrastructure investment depends. That is 
a critical goal for our entire region.
    As the 368 process continues, we are encouraging the Agencies to 
focus on an outcome that helps achieve the goal of significantly 
increasing our domestic energy supplies to support greater energy 
independence as Congress envisioned with passage of EPAct05.
    We believe further that successful completion of the 368 process 
will be essential to the development of projects such as the Frontier 
Line.
    As our Governors, and the Western Governors' Association has noted 
for several years, difficulties related to the siting of energy 
infrastructure systems such as high-voltage transmission lines is 
almost never caused by the intransigence and opposition of States. It 
is, unfortunately, more often because of difficulties that we, and 
private sector developers, face in navigating the difficult shoals of 
getting approvals from federal agencies. Those hurdles range from 
securing approval for siting permits on federal lands to working 
through necessary steps involved in the Endangered Species Act, the 
National Environmental Policies Act and other regulatory processes.
    By and large, these federal regulatory processes are necessary and 
in the public interest. However, we do believe that the 368 energy 
corridor designation process will help facilitate and expedite the 
development of much-needed infrastructure projects in the West, and we 
support its completion.
    I would also note that my state, Utah, is fundamentally committed 
to balancing the interest of the environment, economy and energy 
development. We believe that all interests can be better met when there 
is greater certainty in the regulatory processes.
    Furthermore, a number of stakeholders and experts in our States are 
making specific recommendations with regard to the corridor 
designations and to the programmatic Environmental Impact Statement. I 
have attached a listing of those recommendations to my testimony. I 
offer these not as formal recommendations from our States but as ideas 
that are now being discussed by some of our States' stakeholders with 
the 368 agencies.
Summary
    In summary, Members of the Subcommittee, I would make these points:
    <bullet>  The West needs a strong and robust electricity grid that 
can deliver affordable, reliable and ever-cleaner power to our 
consumers.
    <bullet>  Federal and state policymakers have a very important role 
to play in facilitating increased investment in that grid.
    <bullet>  Efforts like the 368 process are critical to facilitating 
the siting and construction of new electricity infrastructure in the 
West.
    Mr. Chairman, and Members of the Subcommittee, I can speak for all 
of the Frontier Line Governors when I say that our States look forward 
to working with you, and with the entire Congress, in collaborative 
efforts to strengthen our nation's energy infrastructure.
    I would be happy to take questions at your convenience.
    NOTE: The Memorandum of Understanding attached to Dr. Nelson's 
statement has been retained in the Committee's official files.
                                 ______
                                 
    Mr. Radanovich. Thank you, Ms. Nelson. I appreciate your 
testimony.
    Next is Mr. Robert Smith with the Arizona Public Service.
    Mr. Hayworth. Arizona.
    Mr. Radanovich. Excuse me, Mr. Hayworth.
    Mr. Smith, you may begin your testimony.

 STATEMENT OF ROBERT SMITH, MANAGER, TRANSMISSION PLANNING AND 
     ENGINEERING, ARIZONA PUBLIC SERVICE, PHOENIX, ARIZONA

    Mr. Smith. Thank you. Good morning, Mr. Chairman, Members 
of the Committee.
    My name is Bob Smith, and I am the Manager of Transmission 
Planning for APS and Manager of the APS-sponsored TransWest 
Express Project. I have submitted a written statement that I 
would like to that this opportunity to summarize.
    First, I want to thank you for the opportunity to speak 
today on an issue that is important to the electric utility 
industry, the growing need for additional transmission 
infrastructure and the obstacles that exist. I also want to 
express our optimism that the staffs of the Department of 
Energy, Department of Interior and other agencies appear to be 
working diligently and cooperatively to complete the tasks 
assigned to them.
    Arizona and much of the rest of the Southwest has 
experienced demand growth of 3 to 4 percent and this growth is 
expected to continue. The area has seen an increased reliance 
on natural gas as most recent resource additions have been gas-
fired combined cycle generators.
    During 2005, APS resource planning determined a need for 
additional baseload generation as early as 2013. Because of the 
quality of potential wind and coal resources in Wyoming, this 
area was targeted as an option for development of future 
resources. Recognizing the lack of transmission availability 
from Wyoming into the Southwest, ASP, in October of 2005, 
announced that it was initiating a feasibility study for the 
TransWest Express Project, a new EHV transmission project from 
Wyoming to Arizona and other possible locations in the 
Southwest.
    APS is conducting its analysis in an open process that 
seeks input from all potential stakeholders. Four working 
groups were formed to perform technical transmission analysis, 
permitting analysis, economic analysis, and to develop a 
contract for potential participants to participate in the next 
phase of studies and permitting. These working groups are open 
to all stakeholder participation.
    The feasibility study is evaluating a variety of options, 
including several two-circuit, 500 kV AC transmission systems, 
and one single circuit DC transmission line. We have made 
outstanding progress in the feasibility analysis of Phase I is 
on schedule.
    The transmission and permitting feasibility analysis is 
complete, and APS has performed internal economic analysis 
comparing the project that is associated development of Wyoming 
resources to further expansion of both gas and coal within 
Arizona. We are also coordinating our feasibility effort with 
studies underway for the Frontier project.
    The results of these analyses show project alternatives 
that are feasible across a wide range of assumptions and we 
expect to begin permitting in early 2007 for the project.
    The rest of my testimony applies not only to the TransWest 
Express Project, but to all planned transmission facilities 
which will require permitting on Federal lands.
    We were generally pleased with the maps that were issued 
showing the preliminary corridors for the Section 368 
designation, and we will provide comments upon seeing the more 
detailed state maps that are anticipated, but we do have a 
couple of concerns that I want to highlight today.
    APS wants to be sure that already designated utility 
corridors will be carried forward in this process. Corridor 
widths need to be wide enough to allow the construction to 
avoid environmentally sensitive areas, address engineering and 
other technical issues, and provide sufficient separation 
between co-located energy facilities.
    The 3,500-foot width proposed with the initial map is in 
many cases a step backward. APS supports wider corridors. In my 
testimony I included some pictures of a recent fire in Arizona 
that took two extra high-voltage transmission lines out of 
service. Obviously, the wider the corridors enables us to build 
these lines with more spacing, decreasing the chances of 
multiple outages from fires.
    APS encourages the Departments to identify and designate 
alternatives in case the initial corridors prove difficult to 
site. Procedures to define should ensure that siting within 
corridors designated as part of the PEIS process is streamlined 
as compared to siting outside of these corridors, and those 
procedures also need to provide for timely participation and 
review by all key Federal agencies, including the United States 
Fish and Wildlife Service.
    We encourage Congress to ensure that the agencies are 
appropriately funded and have assigned personnel to complete 
their tasks within a timely manner.
    Thank you again for allowing me to speak today.
    [The prepared statement of Mr. Smith follows:]

 Statement of Robert Smith on behalf of Arizona Public Service Company 
                   and The TransWest Express Project

    My name is Robert Smith and I am the Manager of Transmission 
Planning and Engineering for Arizona Public Service Company (APS). On 
behalf of APS, I participate in several regional transmission planning 
organizations that continue to evaluate the need for investment in the 
high-voltage transmission system throughout the West. I also am the 
Project Manager for the TransWest Express Project (TransWest Express). 
I appreciate the opportunity to testify before this joint subcommittee 
hearing on behalf of APS and TransWest Express.
    APS, Arizona's largest and longest-service electricity utility, 
serves more than 1 million customers in 11 of the state's 15 counties. 
With headquarters in Phoenix, APS is the largest subsidiary of Pinnacle 
West Capital Corporation (NYSE: PNW). In late 2005, APS announced the 
initiation of a feasibility study for TransWest Express, which is 
designed to allow Arizona and other western states increased capability 
to access electricity generated from coal and wind resources in 
Wyoming. I will discuss TransWest Express in more detail later in my 
comments.
    I am here today first to thank you for including provisions in the 
Energy Policy Act of 2005 (EPAct 2005 or Act) to address the continuing 
and growing need for additional high-voltage electricity infrastructure 
in the West. Through my involvement in various regional planning 
efforts and the Western Congestion Assessment Task Force (WCATF), it 
has become clear to me that additional interstate transmission is 
needed to ensure grid reliability in the future. That same transmission 
also will help consumers access reliable, affordable and 
environmentally responsible sources of energy. It is therefore 
important that the efforts begun in the EPAct 2005 be implemented in a 
timely and complete manner.
    I also am here to express APS's appreciation for the genuine effort 
and commitment demonstrated by the Departments of Energy and Interior, 
the United States Forest Service, and the Defense Department 
(collectively, the Departments) to accomplish the tasks that Congress 
set for them under Section 368 of the Act. Because securing corridors 
for energy rights-of-way across federal land is critical if western 
energy infrastructure needs are to be met in a reasonable time frame, 
we value the dedication of agency personnel to accomplishing their 
tasks. APS is encouraged that the goal of better interagency 
cooperation, clearly necessary for multi-jurisdictional regional 
issues, appears to be improving and should provide long term benefits 
to the public. APS looks forward to continuing to participate in the 
Section 368 process and to providing comments on the more detailed maps 
that we understand will soon be issued by the Departments.
    APS, like other electric utilities, continually evaluates where it 
needs both new and upgraded transmission facilities to serve its 
customers' needs. APS also has worked successfully in the past with 
various federal agencies, including the Bureau of Land Management, to 
develop utility corridors that have been incorporated into the 
agencies' Resource Management Plans and used by APS or others for HV 
and EHV transmission lines. Because of the value that APS has 
experienced in siting in designated utility corridors, APS supports the 
Section 368 requirement that federal land agencies designate energy 
corridors by August 2007.
    Annual system load growth throughout the Southwest is 3-5%, which 
is approximately three times the national average. It is anticipated 
that the demand in Arizona alone will grow by an additional 9000 MW by 
2020. In order to meet the rapid growth in demand experienced in 
Arizona over the last several years, and the expected continuing rapid 
growth, APS and the other Arizona utilities have constructed a number 
of high voltage (HV) and extra high voltage (EHV) transmission projects 
within Arizona and have several more planned. Included as Attachment 1 
to my testimony is a map showing APS's current plans for new facilities 
between 2005-2014. Attachment 2 is a map that shows existing corridors 
that could be widened to accommodate additional transmission lines and 
potential new corridors that APS believes would be beneficial. Both 
maps were included in APS's Section 368 comments. I am not going to 
repeat our comments here, but will note that APS believes the corridors 
indicated on those maps meet the Section 368 goals, and we are hopeful 
that the federal agencies will designate these corridors in the 
programmatic environmental impact statement (PEIS) currently being 
prepared.
    Based on APS's assessment of its future resource needs, including 
both transmission and generation, APS announced TransWest Express in 
late 2005. APS has been actively seeking input from interested 
stakeholders, has formed four groups (transmission feasibility, 
permitting, economic, and legal and negotiating) to conduct the 
feasibility study, and has held several public stakeholder meetings 
over the past 8 months. We also routinely update the regional planning 
groups that could be impacted by the project, as well as the Western 
Electric Coordinating Council (WECC). Finally, we are coordinating our 
efforts with the Frontier Project and are updating the various state, 
local and tribal jurisdictions that the project may touch.
    TransWest Express seeks to provide access for APS and the Southwest 
to coal (including advanced clean coal technologies) and wind resources 
in Wyoming. The access to these resources will support a balanced 
resource portfolio for the Southwest and will facilitate the more 
effective use of domestic energy resources. In addition, and equally as 
important, TransWest Express will strengthen the reliability of the 
western transmission system and provide benefits to states throughout 
the West. All of the routes under consideration for the project are 
consistent with and supported by both the Report to the Western 
Governors Association titled ``Conceptual Plans for Electricity 
Transmission in the West'' (August 2001) and the Rocky Mountain Area 
Transmission Study (RMATS) reports. Both of those reports noted that 
electric transmission in the West is constrained and that those 
constraints result in the underutilization of the region's vast wind 
and coal resources.
    APS is well along the way with the Phase 1 feasibility study for 
TransWest Express and we expect to complete it by the end of 2006. APS 
is modeling several alternatives consisting of two AC or one DC 
transmission lines along various routes from Wyoming to the Southwest 
and is assessing the environmental and other siting issues raised by 
the potential routes. We have completed the initial transmission and 
permitting analyses, as well as the APS internal economic studies. The 
results of those analyses show project alternatives that are feasible 
across a wide range of assumptions and we anticipate beginning the 
permitting process by early 2007.
    The following diagram shows one of the 500 kV AC transmission line 
alternatives under consideration for TransWest Express:
[GRAPHIC] [TIFF OMITTED] 28556.001

    The following diagram shows one of the DC transmission line 
alternatives being evaluated:
[GRAPHIC] [TIFF OMITTED] 28556.002


    To fulfill the goal of opening access for Arizona and the Southwest 
to Wyoming's wind and coal resources, TransWest Express will be 
required to cross federal lands. Siting, although never an easy 
process, will be facilitated if TransWest Express is able to use pre-
designated utility corridors on those federal lands
    APS believes that the timely implementation of Section 368 will:
    <bullet>  Assist the federal land agencies in addressing the 
anticipated need for new energy infrastructure in the West in their 
planning efforts;
    <bullet>  Encourage that planning to be conducted in a coordinated 
West-wide manner so that designated corridors address the need to 
deliver power across federal land from often remote power sources to 
loads or markets needing access to that power;
    <bullet>  Assure that the environmental work accomplished during 
the designation process does not need to be repeated when transmission 
projects ultimately are sited in pre-designated corridors, thereby 
streamlining the actual siting of new facilities within the corridors; 
and
    <bullet>  Reduce the uncertainties of siting on federal lands when 
companies are able to avail themselves of pre-designated corridors, as 
uncertainty is always a crucial component when major projects have to 
be financed in the capital markets.
    APS will submit comments to the federal agencies regarding the 
proposed corridor maps, but notes the following concerns and issues 
that we believe should be considered:
    <bullet>  The preliminary maps issued by the federal agencies do 
not include already existing corridors as corridors to be carried 
forward. It is not clear if that is intended to imply that those 
corridors will not be redesignated or whether they will remain in place 
and the corridors on the map are additional corridors. APS believes 
that the agencies need to carry forward all of the existing corridors 
already included in Resource Management Plans and that the PEIS should 
address additional utility corridors.
    <bullet>  While APS understands the concern that agencies might 
have had about public reaction to something that might be perceived as 
``over designation,'' it is critical that utility corridors be wide 
enough to provide the flexibility needed to avoid environmentally 
sensitive areas, address engineering, technical and vegetation 
management constraints, and allow lines to be built with sufficient 
separation to reduce the risk of simultaneous outages of multiple 
lines. We believe that the drivers for decision making ought to be: (1) 
anticipated need; (2) an unbiased assessment about how to meet those 
needs where federal lands must be involved (i.e., avoiding sensitive 
land unless no other options are available and setting an appropriate 
higher burden for demonstrating need and no other feasible alternatives 
when sensitive lands are involved); and (3) the technical requirements 
governing co-location of energy facilities of the same type or 
differing types. The agencies have preliminarily proposed corridors of 
only 3,500 feet wide. Such a narrow corridor not only would be narrower 
than many previously designated corridors, but does not meet the 
criteria listed above. APS believes that corridors should be no less 
than one mile wide and preferably 3-5 miles wide.
    Unfortunately, Arizona is quite familiar with the issues raised by 
lines that were built within a too-narrow corridor. Included as 
Attachments 3-4 to my testimony are photographs demonstrating the 
impact that fires, for example, can have on transmission lines that 
have been constructed within close proximity of each other. APS and 
Salt River Project (SRP) both serve the Phoenix metropolitan area. The 
photographs show the SRP Coronado to Silverking 500kV and APS Cholla to 
Saguaro 500kV lines, both of which recently had to be taken out of 
service because of the Potato Complex fire in Arizona. The need to take 
both lines out of service at the same time potentially could have been 
avoided if the lines could have been built with a larger separation 
between them. Although the lines were constructed with spacing that 
sought to balance the need for a right-of-way, the public desire for 
consolidation, and the need to minimize impact (visual and ground 
disturbance) and cost, we have learned over the years that additional 
spacing can be critical to ensure reliability. That is one reason that 
APS has advocated for widening of existing corridors and for the 
designation of new corridors to avoid construction of new lines in 
already existing common corridors.
    <bullet>  APS also understands that the Departments are planning to 
define procedures for siting within designated corridors, as well as 
the management practices that should be employed. Such practices and 
procedures will be very important to us and other electric utilities. 
Meaningful siting procedures that recognize the substantial 
environmental work that already will have been completed as part of the 
PEIS will be critical to making the designated corridors useful for 
their intended purposes. For example, if the siting procedures required 
within a designated corridor are not appreciably streamlined compared 
to those required for siting outside a corridor, companies will have 
less incentive to avail themselves of these corridors. The procedures 
developed also should draw from the experiences of those states 
recognized as having efficient and effective siting processes, such as 
the Arizona Corporation Commission's transmission line siting 
committee. To the extent possible, the federal process also should 
coordinate with state processes.
    <bullet>  We also firmly believe that the best management practices 
developed for designated corridors need to recognize that mandatory 
reliability standards for vegetation management will soon be in place 
as required by the EPAct 2005. Through the Edison Electric Institute 
(EEI), we have signed a Memorandum of Understanding (MOU) with the 
federal land agencies and the Environmental Protection Agency (EPA), 
which we hope upon implementation will lead to more timely, technically 
and environmentally sound vegetation management of transmission rights-
of-way (ROWs) on federal land. In addition, the Section 1211(c) of 
EPAct 2005 requires expedited approvals for steps necessary to comply 
with mandatory reliability standards. The management practices 
developed for designated energy corridors is one of the first places 
where the Departments can begin to implement the MOU and Section 
1211(c) to assure that reliability standards can be met.
    <bullet>  The United States Fish and Wildlife Service (USFWS) has 
an important role to play in helping the Departments complete their 
assignments under Section 368 on time. The active and consistent 
participation of USFWS in the process will be required for the 
Departments to reach the final designations of energy corridors across 
federal lands. USFWS will be critical to the development and review of 
streamlined siting procedures and the best management practices 
designed for the corridors. We urge you to assure that USFWS is taking 
on this responsibility and fully participating and responding to needs 
identified in interagency corridor effort.
    <bullet>  Finally, while I've primarily discussed energy corridors 
on federal land, I want to take a moment to discuss the new Section 
216(h) of the Federal Power Act, established by EPAct 2005. This 
provision gives the Department of Energy (DOE) lead agency 
responsibility to coordinate the issuance of all federal authorizations 
required for transmission projects. This primarily means the 
authorizations required to cross federal land, including USFWS review. 
It requires a coordinated process to ensure that the federal 
authorizations are issued based on the same consolidated record of 
review, in a timely fashion and, to the maximum extent practicable, 
coordinated with state siting processes. We are pleased that DOE, the 
federal land agencies, and the Federal Energy Regulatory Commission 
(FERC) have commenced the implementation of the consolidated review. 
Effective and judicious development and implementation of that review 
process are essential to facilitate the timely construction of the 
transmission projects required to need the infrastructure needs of the 
West. We also encourage DOE and FERC to implement a federal process 
that can be coordinated with and implemented at the same time as the 
state siting process is being implemented.
    Thank you for holding this hearing and providing all of us speaking 
today the opportunity to discuss the infrastructure siting issues we 
are attempting to address. APS looks forward to working with you on 
these issues.
[GRAPHIC] [TIFF OMITTED] 28556.003

[GRAPHIC] [TIFF OMITTED] 28556.004

[GRAPHIC] [TIFF OMITTED] 28556.005

[GRAPHIC] [TIFF OMITTED] 28556.006

                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Smith, for your testimony.
    Next is Mr. Jay Loock who is with the Western Electricity 
Coordinating Council.

 STATEMENT OF JAY LOOCK, DIRECTOR, TECHNICAL SERVICES, WESTERN 
     ELECTRICITY COORDINATING COUNCIL, SALT LAKE CITY, UTAH

    Mr. Loock. Thank you. It is a pleasure to be here, Mr. 
Chairman.
    I am the Director of Technical Service for the Western 
Electricity Coordinating Council staff located in Salt Lake 
City, Utah. I have been asked to address ways and studies being 
undertaken in the West to relieve transmission congestion and 
enhance grid reliability and develop new right-of-ways on 
Federal land through the West. I appreciate this opportunity.
    Just briefly, the WECC, what we are known by, encompasses a 
vast alae of nearly 1.8 million square miles. It is the most 
diverse of the regional councils in the North American Electric 
Reliability Council known as NERC.
    WECC's service territory extends from Canada to Mexico. It 
includes the provinces of Alberta and British Columbia, and the 
northern part of Baja California Mexico, and all or portions of 
the 14 western states between.
    Due to the vastness and diverse characteristics of the 
region, WECC's members face unique challenges in coordinating 
the day-to-day interconnected system operation and long-range 
planning needed to provide reliable and affordable electric 
service to more than 71 million people in WECC's service 
territory.
    Congestion studies that have been undertaken, and the 
Energy Policy Act of 2005 it requires DOE, of course, to issue 
a national transmission congestion study by August 2006, and 
every three years thereafter. Based on this study and public 
comment, DOE is to designate selected geographic areas as 
national interest electric transmission corridors.
    The Western Congestion Assessment Task Force was formed in 
the fall of 2005 due to a proposal to DOE, co-sponsored by 
WECC, CREPC, a western state agency group, and the Seems 
Steering Group of the Western Interconnection.
    The WECC has been involved looking at congestion for 
several years. When DOE received this assignment via the energy 
bill, the natural path to follow was for the WECC to provide 
the study information to DOE.
    WECC had essentially completed most of the historical 
congestion studies prior to the formation of this task force. 
The main purpose of the task force was to serve as a forum to 
develop the input to DOE from the West. The process has been 
open to all interested participants, and there has been good 
participation throughout the Western Interconnection.
    The task force also served as the forum to discuss the 
various DOE issues as they impacted the West, such as 
definition of corridors, definition of congestion areas, et 
cetera.
    Through the task force the WECC has developed a good 
working relationship with the Department of Energy. There has 
been DOE representation and participation at all these 
meetings. The Department of Energy and the West formed a 
productive relationship through the task force both from the 
standpoint of the West understanding DOE's needs and DOE 
understand the needs, processes and practices in the West.
    The major goal of the task force report was to assist DOE 
team when working to implement the Section 1221 of the Energy 
Policy Act of 2005 and help inform the team as it compiles a 
congestion study of the nation's transmission system.
    The task force completed its primary goal of identifying 
transmission congestion in the Western Interconnection and 
submitted a large report to the U.S. Department of Energy's 
National Interests Electric Transmission Corridor Team on May 
9, 2006.
    The task force's intent was to draw congestion information 
from current and recent planning work throughout the entire 
Western Interconnection.
    This report identified congested areas. It identified major 
assumptions, and congestion drivers. It identified economic 
impact of congestion. It also identified sensitivity of 
congestion to assumptions of gas prices, hydro levels, et 
cetera, and this report can be looked at on the WECC website.
    Recommendations that we draw from this is the overall 
effort to designate corridors on Federal lands should be 
commended since the right-of-ways are getting more difficult to 
obtain. To be meaningful, the designation on Federal lands must 
be coordinated with corridor designations on Federal lands 
through a coordinated effort with state, local, and regional 
planning entities to provide corridor continuity.
    Corridor designation for electric transmission and gas 
pipelines must recognize technical separation issues, 
addressing safety, reliability, and maintenance considerations. 
There have been instance of gas pipeline explosions along 
pipeline right-of-ways that could significantly impact electric 
reliability if there is not adequate separation.
    If gas and electric are on the same corridor, separation 
must recognize certain technical aspects to ensure safety of 
pipeline operation. One is the impact of ground currents in the 
vicinity of electric structures during electric flashovers 
under fault conditions and the impact of these ground currents 
on pipelines in close proximity to electric facilities.
    There is a reliability risk of placing too many 
transmission lines on a common corridor. There are also risks 
when gas pipeline and electric transmission lines are on common 
corridors the pipelines may be feeding gas to generating 
resources in the same load areas which electric transmissions 
are providing energy delivery.
    The task force work of identification of future congestion 
areas and the need to assure that Section 368 work and the 
ongoing 1221 are coordinated.
    Once again, I appreciate this opportunity to address this 
committee, Mr. Chairman.
    [The prepared statement of Mr. Loock follows:]

               Statement of James T. Loock, on behalf of 
             Western Electricity Coordinating Council Staff

    My name is James T. Loock and currently I am the Director of 
Technical Services for the Western Electricity Coordinating Council 
(WECC) Staff located in Salt Lake City, Utah. I have been asked by the 
Subcommittees on Water and Power and Forests and Forest Health to 
address ways and studies being undertaken in the West to relieve 
transmission congestion, enhance grid reliability and develop new 
rights-of ways on federal land throughout the West. I appreciate the 
opportunity to testify before this joint subcommittee hearing on behalf 
of WECC on these issues.
Background
    WECC represents the electric power systems engaged in bulk power 
generation and/or transmission serving all or part of the 14 Western 
States and British Columbia, Canada. WECC's interconnection-wide focus 
is intended to complement current efforts to form Regional Transmission 
Organizations (RTO) in various parts of the West. WECC is responsible 
for coordinating and promoting electric system reliability. In addition 
to promoting a reliable electric power system in the Western 
Interconnection, WECC supports efficient competitive power markets, 
assures open and non-discriminatory transmission access among members, 
provides a forum for resolving transmission access disputes, and 
provides an environment for coordinating the operating and planning 
activities of its members as set forth in the WECC Bylaws.
    The WECC region encompasses a vast area of nearly 1.8 million 
square miles. It is the most diverse of the regional councils of the 
North American Electric Reliability Council (NERC). WECC's service 
territory extends from Canada to Mexico. It includes the provinces of 
Alberta and British Columbia, the northern portion of Baja California, 
Mexico, and all or portions of the 14 western states in between. 
Transmission lines span long distances connecting the verdant Pacific 
Northwest with its abundant hydroelectric resources to the arid 
Southwest with its large coal-fired and nuclear resources.
    Due to the vastness and diverse characteristics of the region, 
WECC's members face unique challenges in coordinating the day-to-day 
interconnected system operation and the long-range planning needed to 
provide reliable and affordable electric service to more than 71 
million people in WECC's service territory.
    Membership in WECC is voluntary and open to any organization having 
an interest in the reliability of interconnected system operation or 
coordinated planning. The Council provides the forum for its members to 
enhance communication, coordination and cooperation--all vital 
ingredients in planning and operating a reliable interconnected 
electric system.
    WECC members have long recognized the many benefits of 
interconnected system operation. During the mid 1960s, expansion of 
interconnecting transmission lines among systems in the western United 
States and western Canada resulted in the complete interconnection of 
the entire WECC region. As this expansion was taking place, systems 
generally adopted the Operating Guides of the North American Power 
Systems Interconnection Committee (NAPSIC) to promote consistent 
operating practices within the region. NAPSIC later became the NERC 
Operating Committee.
Congestion Studies:
    The Energy Policy Act of 2005 requires DOE to issue a national 
transmission congestion study for comment by August 2006, and every 
three years thereafter. Based on the study and public comments, DOE is 
to designate selected geographic areas as ``National Interest Electric 
Transmission Corridors.''
    The Western Congestion Assessment Task Force (WCATF) was formed in 
the Fall of 2005 due to a proposal to DOE cosponsored by WECC, CREPC (a 
Western State agency group) and the Seams Steering Group--Western 
Interconnection. The West has been involved at looking at congestion 
for several years. When DOE received its assignment via the 2005 Energy 
Bill, the natural path to follow was for the West to provide the study 
information to DOE. The West had essentially completed most of the 
historical congestion studies prior to the formation of WCATF.
    The main purpose of the WCATF was to serve as the forum to develop 
the input to DOE from the West. The process has been open to all 
interested participants and there has been good participation 
throughout the Western Interconnection. The WCATF also served as the 
forum to discuss the various DOE issues as they impact the West, such 
as the definition of corridors, definition of congestion criteria, when 
is the appropriate time to designate NIETC corridors and other issues 
as follows:
    <bullet>  The energy independence of the United States would be 
served by the designation.
    <bullet>  The designation would be in the interest of national 
energy policy.
    <bullet>  The designation would enhance national defense and 
homeland security.
    <bullet>  There must be ``adverse impact on consumers'' in each 
area listed as experiencing a transmission capacity constraint or else 
the constraint is not of national interest.
    Through the WCATF, the West has developed a good working 
relationship with the DOE. There has been DOE representation and 
participation at the WCATF meetings. DOE and the West formed a 
productive relationship thought the WCATF both from the standpoint of 
the West understanding DOE's needs and DOE understanding the needs, 
processes and practices in the West.
    Because the West is one interconnection AND one NERC region, study 
work has been coordinated for many years. Also due to close working 
relationships between WECC organizations similar views on the issues 
affecting the West become part of the dialog with goals of reaching a 
productive consensus.
    The major goal of the WCATF report was to assist the DOE team 
working to implement Section 1221 of the Energy Policy Act of 2005 and 
to help inform the team as it compiles a congestion study of the 
nation's transmission system.
    The Western Congestion Assessment Task Force (WCATF) completed its 
primary objective of identifying transmission congestion in the Western 
Interconnection and submitted a voluminous report to the U.S. 
Department of Energy's National Interest Electric Transmission Corridor 
(NIETC) team May 9, 2006. WCATF intent was to draw congestion 
information from current and recent planning work throughout the entire 
Western Interconnection. These studies were summarized into a template 
format that the WCATF developed just for this purpose. The assessment 
report presented the following
    <bullet>  Identified congested areas
    <bullet>  Identified major assumptions and congestion drivers
    <bullet>  Identified economic impact of congestion
    <bullet>  Identified sensitivity of congestion to assumptions (gas 
prices, hydro levels, etc)
    <bullet>  Limitations of the analysis
    The study looked at three transmission cases: historical, 2008 and 
2015. Based on the transmission traffic on 67 WECC-rated paths in the 
Western Interconnection, the report found fourteen congestion areas in 
the region. Of those areas, 11 were reported as being congested in the 
historical study, with 10 continuing to be congested or becoming 
congested by 2008, and eight continuing to be congested by 2015. None 
of those eight were free of congestion in the 2008 case and only one 
was free of congestion in the historical study.
    <bullet>  Although the WCATF identified fourteen congestion areas 
within the Western Interconnection in the 2006 Study, an additional six 
congestion areas were identified from sub-regional planning studies.
    <bullet>  The WCATF study focused on the identification of 
transmission congestion; it did not specifically identify resource/load 
Constraint Areas (as defined by DOE).
    <bullet>  The WCATF Congestion Areas were not ranked due to the 
variability and inconsistency in the alternative metric ranking 
methods.
    <bullet>  Studies indicated that future congestion areas are highly 
dependent upon the location of future resources in the West.
    <bullet>  Proposed transmission additions have already been 
identified to alleviate the congestion in many identified congestion 
areas.
    <bullet>  Additional studies are required to determine if it is 
necessary or economical to add new or upgrade existing facilities to 
reduce congestion in the WCATF identified congestion areas.
    <bullet>  The WECC plans to pursue modeling improvements in future 
congestion studies in areas such as hydro models and transmission 
losses in order to improve the accuracy of modeling studies.
    <bullet>  In addition to the constrained areas identified, a number 
of studies performed in the Western Interconnection over the last 
several years have identified potential congestion in the Rocky 
Mountain Area and specifically Wyoming and Montana. This potential 
congestion is the result of the identification of abundant coal and 
wind resources in this area which can be developed and used to supply 
load growth along the West Coast and in the Southwest. Another resource 
rich area is the oil sands area in Northern Alberta. Transmission 
Projects proposed to facilitate resource development in these areas 
include the TransWest Express Project, the Frontier Project, and the 
Northern Lights Projects (Celilo and Inland Projects).
    <bullet>  The WCATF conducted an open congestion identification 
process involving all interested stakeholders. The WCATF encourages 
continued use of open public processes to identify congestion in the 
West.
    Details of the report to DOE can be found on the WECC web site at: 
http://www.wecc.biz/
modules.php?op=modload&name=Downloads&file=index&req=
viewsdownload&sid=178
Recommendations
    1) The overall effort to designate corridors on federal lands 
should be commended since right-of-ways are getting more difficult to 
obtain. To be meaningful, the designation on federal lands must be 
coordinated with corridor designations on non-federal lands thru a 
coordinated effort with state, local and regional planning entities to 
provide corridor continuity.
    2) Corridor designation for electric transmission and gas pipelines 
must recognize technical separation issues addressing safety, 
reliability and maintenance considerations. There have been incidents 
of gas pipeline explosions along pipeline right-of ways that could 
significantly impact electric reliability if there is not adequate 
separation.
    3) If gas and electric are on the same corridor, separation must 
recognize certain technical aspects to assure safety of pipeline 
operation. One is the impact of ground currents in the vicinity of 
electric structures during electric flashovers under fault conditions 
and the impact of these ground currents on pipelines in close proximity 
to electric facilities.
    4) There is a reliability risk to placing too many transmission 
lines on a common corridor. The risk to interconnected system operation 
is having too many critical facilities on a common right-of-way, or too 
many lines feeding a major load center on a common corridor. 
Consideration must be given to wild fires and the impact of smoke on 
the flashover strength of tower air gaps. There is also a national 
security issue of having too many facilities on a common corridor, 
creating the potential vulnerability to terrorist activities.
    5) There also are risks when gas pipelines and electric 
transmission lines are on common corridors, the pipelines may be 
feeding gas generating resources in the same load areas for which 
electric transmission is also providing energy delivery. This can 
compound the problem if there is a corridor loss since CTs may not be 
available due to lack of gas supply, to serve load that was being 
served by the electric transmission on the common corridor.
    6) The WCATF work of identification of future congestion areas and 
the need to assure that Section 368 work and the ongoing Section 1221 
work are coordinated.
    7) New transmission is needed through federal land for load growth 
and to access renewable and conventional resources.
    8) New levels of cooperation and coordination are needed with 
federal land managers to allow utilities to adequately protect the 
transmission systems from fires on federal lands.
    Basically, the issues of corridor designation partly deals with 
assuring there is adequate corridor width, to assure that the technical 
and safety aspects can be dealt with technically.
Future Studies
    Long range transmission planning is being performed to address 
needs and maximize the efficiency of the system through continual 
coordination efforts in the Western Interconnect.
    Recently WECC formed the Transmission Expansion Planning Policy 
Committee to perform the following main functions:
    <bullet>  Provide policy and management of the transmission 
expansion planning process.
    <bullet>  Oversee database management of transmission information.
    <bullet>  Guide the analyses and modeling for Western 
Interconnection economic transmission expansion planning.
    Purpose and responsibilities of the new committee include:
    <bullet>  Steering decisions on analytical methods and on selecting 
and implementing production cost and other models found necessary.
    <bullet>  Ensuring the economic transmission expansion planning 
process is impartial, transparent, properly executed and well 
communicated.
    <bullet>  Ensuring that regional experts and stakeholders 
participate, including state/provincial energy offices, regulators, 
resource and transmission developers, load serving entities, 
environmental and consumer advocate stakeholders through a stakeholder 
advisory group.
    <bullet>  Supporting DOE's initiative to evaluate transmission 
congestion and identify national interest transmission corridors in 
order to maximize the utility of DOE's work for the Western 
Interconnection.
    <bullet>  Organizing and coordinating activities with sub-regional 
planning processes.
Conclusions
    Small towns and major cities in the west are threatened with the 
loss of power due to fires on federal lands due to limited corridors on 
federal lands. With work associated with Section 368 federal energy 
corridors we can provide the opportunity to provide needed expansion 
and diversity in the western electric transmission system to keep up 
with load growth and resource adequacy.
    We encourage the federal land managers to have a longer-term 
perspective in their evaluation and consider future needs. There exists 
sensitivity of resource assumptions for corridor needs, but if action 
is not taken to identify corridors during this evaluation, can we 
assume that the needed corridors may not be available in the future?
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Loock. Appreciate your 
testimony.
    Next is Mr. Dave Willis, Coordinator with Sierra Treks. Mr. 
Willis, welcome to the Subcommittee and you may begin your 
testimony.

         STATEMENT OF DAVE WILLIS, COORDINATOR, SIERRA 
               TREKS, OUTFITTER, ASHLAND, OREGON

    Mr. Willis. Thank you, Mr. Chairman.
    I am Dave Willis. For over 30 years, I have run an outfit 
called Sierra Treks that does trips for church and school 
groups in Pacific states' wild areas. I live in southwest 
Oregon where I also coordinate a local conservation group 
called the Soda Mountain Wilderness Council. We worked very 
hard for the designation of Oregon's newest national monument, 
the Cascade-Siskiyou.
    Thank you for allowing me to address this in process EIS 
for the Energy Policy Act, which currently puts a 3,500-foot 
wide, two-thirds of a mile wide energy corridor right through 
the middle of the Cascade-Siskiyou National Monument.
    I appreciate the note on the energy corridor's website map 
that says the majority of the preliminary energy corridors 
utilize existing corridors and/or rights-of-way. However in the 
Cascade-Siskiyou National Monument trying to fit a new 3,500-
foot corridor into an existing power line swath of 200 feet or 
less is like asking a python to swallow a brontosaurus.
    The Klamath-Siskiyou ecoregion in southwest Oregon and 
northwest California is the most botanically diverse coniferous 
forest in North America, if not the world, a veritable Noah's 
Ark of botanical diversity. It is relatively undeveloped, 
relatively high elevation connecting land bridge to the 
Cascades and Great Basin, genetically connects the Klamath-
Siskiyou with the rest of the West.
    This land bridge to the Cascade-Siskiyou Monument area is 
the ecological loading dock for the botanically diverse 
Klamath-Siskiyou arc. That is the scientific reason it was 
protected as a national monument, and that is why the monument 
proclamation calls the area an ecological wonder and a 
biological crossroads.
    There are 23,000 acres of the 53,000-acre monument that are 
wild enough for wilderness designation. Much of the monument's 
remaining 30,000 acres are not pristine, but the monument 
wasn't protected for its pristinity, it was protected for its 
important biological connectivity function, as a genetic 
loading dock.
    One hundred and 200-foot wide conjoining power line 
corridors already fragment the monument. Interstate 5 on 
Siskiyou Pass to the West, adjacent private logging and past 
public logging, and so-called development throughout further 
fragment the area. Because of the important ecological 
connectivity values of the area and because of both public and 
private impacts, as many acres of public land here possible 
needed and still need the best protection possible.
    The Cascade-Siskiyou connection has been an unraveling 
ecological thread. We need to be repairing the thread here, and 
turning it into a rope that becomes a biologically resilient 
ecological connectivity cable. This unique area does not need a 
3,500-foot wide government-sponsored mega-swath further 
fragmenting an ecologically strategic landscape just as 
management for the area is finally and at long last turning 
toward recovery.
    The Cascade-Siskiyou Monument is no doubt not the only 
natural or ecologically important area for which a 3,500-foot 
wide energy corridor is preliminarily proposed. Energy 
corridors do not belong in national monuments, wilderness 
areas, wilderness study areas, roadless areas, threatened and 
endangered species habitat, core habitat linkage areas, 
migration corridors, citizen-proposed wilderness, key and 
municipal watersheds, national parks, or national wildlife 
refuge, and beyond the earnest outpouring of my bleeding green 
heart, there are pragmatic factors that prudent planners should 
consider.
    Specifically in the Cascade-Siskiyou National Monument, the 
monument's proclamation says these 53,000 acres ``are hereby 
set apart and reserved for the purpose of protecting'' the 
objects identified in the proclamation, a list of which pretty 
much covers every native plant, animal, and feature you will 
find there.
    Monument? What monument is that? That is what proposing an 
energy corridor here says. I don't believe judges will be so 
confused as to what does and does not constitute protection 
under the monument proclamation.
    The Fish and Wildlife Service's map in the Seattle Times 
shows proposed energy corridors passing through more than one 
area of threatened and/or endangered species habitat, including 
a habitat area in the Cascade-Siskiyou Monument. This 
particular species, if its habitat area is sufficiently 
incrementally degraded, could upset an already very precarious 
Pacific Northwest Federal forest planning apple cart, and bring 
Federal logging in the region to another standstill.
    In any 3,500-foot corridor that violates the BLM wilderness 
study area, as the corridor does here, violates the non-
impairment standard of the Federal Land and Policy Management 
Act.
    Behind the energy corridor map is the nagging larger 
question of what kind of world we will leave when we are gone. 
The question of whether our grandchildren will bless or curse 
us. Personal conservation virtues, contrary to the inference of 
some, are necessary, but without virtuous policy the special 
Baldy Creeks, Soda Mountain, Camp Creeks, Skookum Creeks, and 
Agate Flats of this one lovely irreplaceable world that we did 
not create and cannot replace are doomed to be just more banal 
casualties of mindless insatiable appetite. Guaranteed our 
descendants will curse us for that, if they even have an 
inkling of what they are missing.
    Thank you for considering my remarks.
    [The prepared statement of Mr. Willis follows:]

                Statement of Dave Willis, Coordinator, 
                Sierra Treks, Outfitter, Ashland, Oregon

``to reemphasize: The Soda Mountain area is more than just botanically 
interesting; it is an important link for migration, dispersion, and the 
process of evolution in the Northwest.''
                       Dr. Tom Atzet, U.S. Forest Service, 
            Southwest Oregon Area Ecologist, March 22, 1994

``The Soda Mountain Area near Medford, Oregon...This decision 
recognizes the special biological qualities of this unique area and 
directs the BLM to evaluate carefully the values of the Soda Mountain 
area as a biological connectivity corridor and propose any additional 
management protection necessary, including a special designation...to 
protect those values.''

Record of Decision: ``Northwest Forest Plan'', April 1994, 
                                                    page 30

``Manage...near Soda Mountain and Agate Flat areas as the Cascade/
Siskiyou Ecological Emphasis Area...Management will consider four 
varied plant communities, two RNAs, two ACECs, special status plant and 
animal populations, crucial deer range for an interstate herd, and the 
outstanding recreation and scenic values.''

Record of Decision and Resource Management Plan, USDI, BLM, 
   Medford District, June 1995, Page 56 (``Special Areas'')

``With towering fir forests, sunlit oak groves, wildflower-strewn 
meadows, and steep canyons, the Cascade-Siskiyou National Monument is 
an ecological wonder, with biological diversity unmatched in the 
Cascade Range. This rich enclave of natural resources is a biological 
crossroads--the interface of the Cascade, Klamath, and Siskiyou 
ecoregions, in an area of unique geology, biology, climate, and 
topography...The monument is home to a spectacular variety of rare and 
beautiful species of plants and animals, whose survival in this region 
depends upon its continued ecological integrity.''

 First words of the June 9, 2000 Proclamation establishing 
    the Cascade-Siskiyou National Monument (www.or.blm.gov/
                                                      CSNM)

    My name is Dave Willis. For over thirty years, I've tried to run a 
program called Sierra Treks. We offer backpacking and climbing trips 
for church and school groups in Pacific states wild areas. We help our 
students understand the obvious, but too often forgotten, truth that 
while Congress can protect wild areas, Congress does not create them. 
And, with our students, we mourn the historically unprecedented, 
relentless loss of de facto wild areas our world suffers each day.
    I live in SW Oregon where I also try to coordinate a local 
conservation group called the Soda Mountain Wilderness Council. We 
worked hard for the designation of Oregon's newest National Monument, 
the Cascade-Siskiyou--a not-completely wild area now legally slated 
for, and desperately in need of, more than merely de facto protection. 
For over twenty-five years, I've made my home right next to BLM land 
that is now BLM Monument land. (The neighborhood is improving.)
    Thank you, Chairman Radanovich and Chairman Walden, for allowing me 
to address the Programmatic EIS being prepared per section 368 of the 
Energy Policy Act of 2005, which currently puts a 3,500 foot wide--two-
thirds of a mile wide--energy corridor right through the middle of the 
Cascade-Siskiyou National Monument.
    As the people's representatives, Congress has an unenviable task 
and heavy burden. Discerning between America's energy needs and wants 
is challenging. The on-the-ground evidence is that incremental policy 
drift defines every energy want as a demand that must be met. This is a 
dangerous, though historic, megatrend--not only dangerous globally (in 
many painful ways), but also dangerous locally for many precious 
wildlands and human communities.
    I appreciate the ``Note'' on the June 2006 ``Potential Energy 
Corridors' website map (http://corridoreis.anl.gov/eis.pdmap/index.cfm) 
that says, ``The majority of the preliminary energy corridors utilize 
existing corridors and/or rights-of-way....'' However, in the Cascade-
Siskiyou National Monument, trying to fit a new 3,500 foot, two-thirds 
of a mile, wide corridor into an existing powerline swath of a few 
hundred feet or less is like trying to get a python to swallow a 
brontosaurus. And the Interstate-5 corridor, the nearest likely 
alternative to the west, is already a serious ecological barrier to the 
primary connectivity reason the Cascade-Siskiyou Monument was 
designated.
    The Klamath-Siskiyou eco-region of SW Oregon and NW California is 
the most botanically diverse coniferous forest in North America, if not 
the world--a veritable Noah's Ark of botanical diversity. Its 
relatively undeveloped, relatively high elevation connecting land 
bridge to the Cascades and Great Basin genetically connects the 
Klamath-Siskiyous with the rest of the West. The Cascade-Siskiyou 
Monument area is the ecological loading dock for the botanically 
diverse Klamath-Siskiyou ark--that's the scientific reason it was 
protected as a National Monument. And that's why the Monument 
Proclamation calls the area ``an ecological wonder'' and ``a biological 
crossroads.''
    Though 23,000 acres of the 53,000 acre Monument are wild enough for 
Wilderness designation, much of the Monument's remaining 30,000 acres 
are not pristine. But the Monument wasn't protected for its 
``pristinity.'' It was protected for its important biological 
connectivity function--as a genetic ``loading dock.''
    Two conjoining ``small'' powerline corridors--100 and 200 feet 
wide--already fragment the Monument. (Their days may be legally 
numbered). And Interstate-5 on Siskiyou Pass to the west, plus private 
logging and past public logging, as well as so-called development 
throughout, further fragment the area.
    The Monument was designated--more than ``in spite of''--but because 
of so much pre-existing fragmentation and the very real danger of more. 
Because of the important ecological connectivity values of the area, 
and because of both public and private impacts, as many acres of public 
land here possible needed (and still need) the best protection 
possible. The Cascade-Siskiyou connection has been an unraveling, 
ecological thread. Public lands are the area's best anchors for 
protection. We need to be repairing the thread here and turning it into 
a rope that becomes a biologically resilient ecological connectivity 
cable.
    Through financial incentives, ranchers are collaborating with 
conservationists to reduce or eliminate the impacts of livestock 
grazing here. Timber companies and land trusts are reversing the 
impacts of industrial logging here. The BLM is about to release a 
Monument management plan ostensibly aimed at ecological protection, 
restoration, and enhancement here. This unique area does not need a 
3,500 foot wide government-sponsored mega-swath further fragmenting an 
ecologically strategic landscape just as management for the area is 
finally and at long last turning toward recovery.
    A further irony here would be the social, if not political, impact 
of a two-thirds of a mile wide energy corridor busting through private 
lands adjacent to the Monument. The chief argument against the Monument 
before and after its designation was brought by sincerely mistaken 
folks who feared the government was really out to take private land and 
make it public. That was ridiculous--especially in light of Secretary 
Norton's first lead Monument staff's statement to five of us local 
landowners in June 2001 that, ``We don't even want public land to be 
public.''
    Now the very party that local private property rights advocates 
cleave to for succor seems about to turn the tables on them. Back in 
2001, I told Monument opponents the only talk of eminent domain I was 
hearing about was in VP Cheney's Energy Plan. Chairman Walden, do you 
really want me to be able to tell my neighbors--these local 
constituents of yours--``I told you so''?
    The Cascade-Siskiyou National Monument is, no doubt, not the only 
natural or ecologically important area for which a 3,500 foot wide 
energy corridor is preliminarily proposed. Energy corridors do not 
belong in National Monuments, Wilderness areas, Wilderness Study Areas, 
roadless areas, threatened and endangered species habitat, core 
habitat/linkage areas, migration corridors, citizen-proposed 
wilderness, watersheds, National Parks, or National Wildlife Refuges.
    And, beyond the earnest outpouring of my bleeding green heart, 
there are pragmatic factors prudent planners should consider. 
Specifically, in the Cascade-Siskiyou National Monument:
    <bullet>  The Proclamation says these 53,000 acres ``are hereby set 
apart and reserved...for the purpose of protecting the objects'' 
identified in the Proclamation's pre-amble. (A list of those 
``objects'' pretty much covers every native plant, animal, and feature 
you'll find there.) With regard to utilities, despite an admirable 
statement of protection purpose, BLM's proposed Monument management 
plan seems to say, ``Monument? What Monument?'' That's what proposing 
an energy corridor there says, too. Judges will not be so confused as 
to what does and does not constitute ``protection'' under the Monument 
Proclamation.
    <bullet>  The U.S. Fish and Wildlife Service's map shows proposed 
energy corridors passing through more than one area of threatened and/
or endangered species habitat--including a habitat area in the Cascade-
Siskiyou Monument. This particular species, if its habitat area is 
sufficiently incrementally degraded, could upset an already very 
precarious Pacific Northwest federal forest planning applecart and 
bring federal logging in the region to another standstill. The current 
situation, called ``gridlock'' by some now, would be regarded then, 
after the next screeching halt, as a cornucopian ``Camelot.''
    <bullet>  Any 3,500 foot corridor that violates a BLM Wilderness 
Study Area--as the preliminary corridor through the Cascade-Siskiyou 
Monument would violate the Monument's Soda Mountain Wilderness Study 
Area--violates the non-impairment standard of the Federal Land Policy 
and Management Act.
    But I'm not a lawyer. I'm just an eco-hack, has-been outfitter. I 
submit that if I were a lawyer, my list for prudent planners would be 
longer. That's why I'm glad to read on the preliminary map's ``Note'' 
that ``All officially designated corridors will be in compliance with 
applicable laws and regulations'' and that the mapped ``corridors are 
subject to change until they are officially established in August 
2007.''
    Faith that corridor planners will indeed link applicable laws and 
regulations with pragmatic planning and political sensitivity, has me 
hoping that no final corridor will be planned for the Cascade-Siskiyou 
National Monument or any other natural or ecologically sensitive area. 
I hope my faith in planner compliance is not misplaced.
    Finally, as our elected representatives, I implore you to move us 
beyond writing off serious energy conservation measures as an optional 
``personal virtue.'' I implore you to not simply regard every energy 
demand as a commanding, irrefutable need. I implore you to use boldness 
and creativity--to be the leaders we elected you to be--to give us the 
inspiration and incentive to reduce our energy demand. This is 
certainly easier said than done. I don't envy the national 
responsibility you each campaigned for and--at least temporarily--have 
achieved.
    We're all temporary. Behind the energy map is the nagging question 
of what kind of world we'll leave when we're gone--the question of 
whether our grandchildren will bless or curse us. ``Personal virtues,'' 
contrary to the inference of some, are necessary. But, without virtuous 
policy, the special Baldy Creeks, Soda Mountains, Camp Creeks, Skookum 
Creeks, and Agate Flats of this one lovely, irreplaceable world that we 
did not create and cannot replace are doomed to be just more banal 
casualties of mindless, insatiable appetite. Guaranteed: our 
descendants will curse us for that--if they have even an inkling of 
what they're missing.
    The Cascade-Siskiyou Monument's Proclamation says the area ``is 
home to a spectacular variety of rare and beautiful species of plants 
and animals whose survival in this region depends upon its continued 
ecological integrity.'' Behind our current unbridled energy 
consumption, there is more than plant and animal survival at stake. And 
more than ecological integrity is at stake, as well, in setting energy 
policy.
    Thank you for considering my remarks.
Recap of key points and considerations:
    When energy needs are real, and after all conservation measures 
have been seriously implemented through energy policy, designating 
corridors to transport energy across the nation is a good idea, but it 
is vital that these corridors are located only in appropriate places, 
and that their construction and use are also carefully determined. 
Thoughtful planning is the best way to protect people and the rest of 
the natural environment.
    The Cascade-Siskiyou National Monument is a prime example of a 
place that a corridor of the substantial width and range of uses 
contemplated by Section 368 of the Energy Policy Act should not be 
placed. The risk of damaging the Monument's values is too great and 
exposing the Monument to such a risk would be inconsistent with the 
Presidential Proclamation.
    <bullet>  The proposed corridor through the Cascade-Siskiyou 
National Monument is located in old growth forest, as well as habitat 
for the Northern spotted owl. Most of the existing corridor is accessed 
by only a very rough, four-wheel drive track. The proposed 3,500 foot 
wide corridor appears to follow an existing right-of-way, but the 
current corridor is only 100 to 200 feet wide and is only for a 
powerline. Placing a wider corridor in this location would damage the 
special values of the Monument.
    <bullet>  The broader range of uses that would be authorized for 
the proposed corridor would also increase the risk of contamination 
from activities in the corridor and the amount of damage from 
activities to construct facilities and to access the area. 
(Introduction of noxious weeds in the Monument's ``Diversity Emphasis 
Area'' by the soil disturbance a mammoth corridor require would not 
increase the type of ``diversity'' the Monument was established to 
protect--and directly contradicts stated Monument planning direction.) 
It is likely that more development would occur based on the location of 
the new corridor--in fact, that is why these larger corridors are being 
identified: to increase the opportunities for energy development 
projects. The impacts of expanded development would place an 
unacceptable burden on the Monument.
    The corridor in the Cascade-Siskiyou National Monument is also 
instructive for the broader issues that arise in placing the proposed 
energy corridors on public lands in general.
    <bullet>  Some places are not suitable for designation of energy 
corridors under the accelerated process and wide range of uses set out 
in Section 368 of the Energy Policy Act. These places include: 
Wilderness Areas; Wilderness Study Areas (WSAs); National Parks; 
National Wildlife Refuges; National Monuments; National Conservation 
Areas; other lands within BLM's National Landscape Conservation System 
(NLCS), such as Outstanding Natural Areas; National Historic and 
National Scenic Trails; National Wild, Scenic, and Recreational Rivers, 
study rivers and segments, and eligible rivers and segments; Areas of 
Critical Environmental Concern (ACECs); Forest Service Roadless Areas; 
threatened, endangered and sensitive species habitat, as well as 
critical cores and linkages for wildlife habitat; citizen-proposed 
wilderness areas and other lands with wilderness characteristics.
    <bullet>  Siting corridors along existing highways and/or right-of-
ways is a good start, but further inquiry is still necessary before 
placing large, intensive use corridors. In this context, it is also 
important to consider that the corridors will draw additional projects. 
As a result, where an existing right-of-way is not along a road, is 
along a narrow or unpaved road, or is along a road through sensitive 
areas (such as citizen-proposed wilderness), designation of the 
substantial energy corridors envisioned by the Energy Policy Act may 
not be appropriate.
    <bullet>  Where the federal agencies make a reasoned determination 
that a location is safe and suitable for a large energy corridor, it is 
still essential to assess necessary limits on the construction and use 
of corridors. Responsible management practices can help to diminish the 
potential impacts on both human health and the natural environment. By 
mandating these measures in the Programmatic EIS, the federal agencies 
can best ensure that they are uniformly applied and most effective. For 
instance:
      <all>  if there is a watershed nearby, then oil and gas pipelines 
may not be an approved use;
      <all>  if there is valuable scenery or wildlife habitat present, 
then buried lines may be required to reduce impacts on visual resources 
or wildlife;
      <all>  if there is fragile vegetation, then only a narrower 
corridor may be permitted.
    The federal agencies have a critical responsibility in designating 
energy corridors. They should fulfill this responsibility by first 
ensuring that they consider all relevant information on the values of 
the public lands. Then, the agencies should avoid certain areas 
altogether, such as the Cascade-Siskiyou National Monument, and, for 
those areas where corridors can be responsibly located, apply 
conditions to minimize the risks of environmental damage.
[GRAPHIC] [TIFF OMITTED] 28556.007

    Mr. Radanovich. Thank you, Mr. Willis, for your testimony. 
I appreciate that.
    Next is Mr. James Avery with San Diego Gas and Electric. 
Mr. Avery, welcome to the Subcommittee

STATEMENT OF JAMES AVERY, SENIOR VICE PRESIDENT--ELECTRIC, SAN 
         DIEGO GAS AND ELECTRIC, SAN DIEGO, CALIFORNIA

    Mr. Avery. Good morning, Mr. Chairman, ladies and 
gentlemen. Thank you for this opportunity to speak.
    I am not going to read any comments into the record. You 
have a copy of my testimony before you. What I would like to do 
is to address some of the questions and some of the statements 
that have been raised by yourselves. In particular, let me 
start with talking about conservation.
    When San Diego Gas and Electric Company took over after the 
energy crisis getting back into the business of supplying the 
power to our customers, we decided that we had to start with 
what we call a balanced energy portfolio, and what that means 
is we look first for conservation.
    San Diego Gas and Electric is very proud of the 
accomplishments that we have been able to realizing in our 
conservation efforts over the years, so much so that if you 
look at our company we have among the lowest usage per customer 
of any utility in this nation, and that is from the Maine 
borders to Florida to California, and that is largely due to 
our conservation efforts.
    Also, the balanced energy portfolio calls for what we call 
demand response programs. That means getting our customers 
involved in helping to curtail their loads as a way of serving 
future supply, meaning if we can have our customers change 
their mode of operation to reduce power at the time when it is 
needed elsewhere in our system, it is another way of 
essentially doing the same thing.
    Third on that list is renewables, the development of 
renewable energy. San Diego Gas and Electric has been 
recognized as the leader in this country for adding new 
renewables a percentage of our total energy portfolio just over 
the last two years, and we have an aggressive program to triple 
that effort over the next two years, all because we feel it is 
prudent to pursue renewables before we look at fossil 
generation.
    At that point, and only after that point do we then look at 
new sources of energy from the format of either natural gas or 
coal or other resources, but in looking at those efforts, and 
even look at the renewable energy that is available to us, we 
need new transmission. If I look into San Diego, we have not 
added any transmission infrastructure in our system in over 20 
years connecting us to the outside world. We have been able to 
get by over those years because of our conservation efforts and 
because of our other programs, and because we have been able to 
grow into our system.
    But we are at a point where if we are to continue to grow 
and to add to our economy we need new infrastructure to get us 
there. San Diego is home to over 16 military bases, over 
125,000 military and support personnel, and we are the home of 
the Pacific Fleet, and yet if you look at our system we 
basically only have two corridors connecting us to the outside 
world.
    The fragility of that system is such that if we lose one 
substation connecting us to the north at any time of year, not 
just during our summer peaks, we will suffer outages. We have 
had an instance in February of 2001 where we lost the 
connection to our northern substation. We had to blackout 
roughly 300,000 customers in February, one of the lightest load 
months of the year. So new infrastructure is something that we 
desperately need in our region.
    If I also look at what new infrastructure can do for us, we 
have been in a situation where in order to get by day by day we 
have to depend upon older power plants that in this case are 
over 50 years old. And if I look at it from the standpoint of 
some of the comments that were made earlier, the notion of what 
does that do to the environment, well, these power plants are 
not the cleanest, they are not the most efficient.
    Yet if I look just to our borders to the east, there are 
thousands of megawatts of new generation, highly efficient and 
that pollute a small fraction of the older power plants that 
just aren't available because of a lack of transmission. Today, 
those inefficiencies are costing our customers over $200 
million a year. That equates to about a penny per kilowatt 
hour.
    When I look at the cost of energy, even at today's gas 
prices of being somewhere in the neighborhood of five cents a 
kilowatt hour, one penny is a 20 percent premium that we are 
paying because of inefficiencies on that transmission network 
today.
    With that, I open myself up for any comments or any 
questions.
    [The prepared statement of Mr. Avery follows:]

     Statement of James P. Avery, Senior Vice President--Electric, 
                    San Diego Gas & Electric Company

    Mr. Chairman, Ladies and Gentlemen, my name is James P. Avery and I 
am the Senior Vice President over the electric operations for San Diego 
Gas & Electric Company (``SDG&E''). I would like to thank you for 
providing me with this opportunity to share my experience in siting new 
transmission facilities, but most of all, for taking the time to 
involve yourselves with what I believe is a very important issue that 
is facing this country today.
    SDG&E provides electric utility service to 1.3 million customers in 
and around San Diego, California. San Diego is the nation's eighth 
largest city and the nation's sixth largest county, with an economy in 
excess of $70 billion of goods and services per year, and SDG&E is the 
sole electric utility serving this area.
    SDG&E also provides electricity to many critical defense 
facilities. San Diego is the west coast home base for the U.S. Pacific 
Fleet. Our service territory includes Camp Pendleton, the largest 
Marine Corps Base in the US, as well as 16 Navy and Marine bases. The 
total military population on these bases exceeds 100,000 military 
personnel and over 20,000 civilian personnel.
    As I look back at the energy crisis of 2000 and 2001, and the time 
periods before and after that, perhaps the most important lesson we 
should take away is that California, and this country in general, has 
become dependent on inefficient and antiquated power plants and 
transmission infrastructure. Here we stand six years after the crisis, 
and very little has changed.
    While it is true that several new power plants and some new 
transmission lines have been placed into service over the last few 
years, we are still dependent on infrastructure that was largely 
constructed many decades ago.
    Over the next decade, California must construct over 15,000 
megawatts of new generation in order to meet the needs of our growing 
economy. At the same time, we will have to replace an equal amount of 
generation as older power plants are retired and removed from service. 
In addition, new transmission lines will be required to enable movement 
of power and energy from these new generation sources to local load 
centers, and to alleviate congestion that has come about as a result of 
growth over the past two decades. Putting it very simply, our 
investment in generation and transmission has not kept pace with our 
economic and physical growth. As a result, our interstate transmission 
system has become congested making it inefficient to move energy 
between generators and our customers.
    Today, our customers in the San Diego region pay over $200 million 
each and every year to buy our way around the inefficiencies in a 
transmission infrastructure that was designed to serve the loads of 20 
years ago. And congestion can be found on virtually every transmission 
network located across this country.
    I did not come here today to complain about our problems. I came 
here today to inform you about what we are doing to solve them so you 
can help us to make these solutions a reality.
    First and foremost, SDG&E is committed to promoting our energy 
conservation initiatives. Second, we are pursuing demand response 
programs to enable our customers to become a part of the solution. And 
third, SDG&E has been recognized as a leader in this country for 
expanding the development of new and clean energy from renewable 
resources such as wind, geothermal, biomass and solar energy. For 
example, SDG&E has contracted with Stirling Energy Company for what 
will become the largest solar energy power plant in the world. But to 
deliver this energy, a new transmission line crossing federal land is 
needed. In addition, federal land will also be needed to site the 
Stirling Energy solar power plant.
    To meet these needs, and to reinforce the existing transmission 
network that serves the San Diego region, SDG&E has proposed a new 500 
kilovolt transmission line known as the Sunrise Powerlink. The Sunrise 
Powerlink will be the first new transmission link built to serve the 
San Diego region in over 20 years and will increase the deliverability 
of power into the region by over 40 percent. At the same time, the 
Sunrise Powerlink will be capable of delivering approximately 1000 
megawatts of clean and efficient energy from renewable resources while 
reducing costs through the elimination of some of the inefficiencies 
that exist in our transmission network. The elimination of these 
inefficiencies alone will save our customers over $100 million per 
year.
    The Sunrise Powerlink will originate in the Imperial Valley and 
extend about 140 miles west to the center of SDG&E's system. To do 
this, we will have to cross approximately 40 miles of federal land 
under the control of the Bureau of Land Management. In addition, this 
line will come in close proximity to other federal lands under the 
control of the Department of Defense. SDG&E is committed to working 
with these agencies to ensure that this line is designed and engineered 
to meet strict environmental standards. To date, both the Bureau of 
Land Management and the Department of Defense have worked 
collaboratively to move this project along. In this regard, we 
acknowledge the recent efforts of the Department of Energy to implement 
regulations governing transmission development on federal land under 
authority granted by the 2005 Energy Policy Act.
    But other obstacles still exist. There are competing interests for 
the use of federal land. For example, our recent experience suggests 
that federal land managers suffer serious staffing constraints making 
it difficult to timely and effectively address access issues. My 
request to you is that you send a clear message to all federal agencies 
to place a high emphasis on the use of federal land to support new 
energy infrastructure that is critical to the future of this country.
    Our efforts are not stopping there. Beyond our service territory, 
we are supporting the study efforts that have been initiated by the 
Governors of California, Nevada, Utah and Wyoming, who are working 
together to spearhead the development of the Frontier Line. The 
Frontier Line is a proposed new interstate high-voltage electric 
transmission line proposed across the Western U.S., originating in 
Wyoming and with terminal connections in Utah, Nevada and California.
    The utilities involved in the study work are Southern California 
Edison, Pacific Gas and Electric, Sierra Pacific Power, Nevada Power, 
Rocky Mountain Power, Utah Power and SDG&E. This partnership will work 
with other players in the region that are planning transmission 
expansion, including National Grid, Arizona Public Service and the 
Wyoming Infrastructure Authority. This effort will also coordinate with 
the proposed TransWest Express project.
    The Frontier Line has the potential to spur the development of 
thousands of megawatts of new renewable-generated power and clean coal 
power to consumers in the southwest. The Frontier Line, with its 
associated generation resources, is the largest clean and renewable 
energy infrastructure project ever proposed in the Western U.S.
    Behind the need for studying such development is the fact that the 
West is the fastest growing region of the country. Accordingly, new 
electric infrastructure is required. In addition, the need to diversify 
the region's energy resource base, providing further protection for 
consumers against energy price spikes and shortages, is essential.
    The Frontier Line project also has the potential to:
    <bullet>  Strengthen the reliability of the West's transmission 
system;
    <bullet>  Reduce reliance on foreign energy imports and enhance 
domestic energy security; and
    <bullet>  Encourage new technologies that can accelerate the 
development of renewable energy generation and reduce the cost of 
controlling emissions from the West's vast fossil fuel resource base.
    The need to serve the public demand for electricity, along with the 
need to be sensitive to land use and environmental preservation, are 
not mutually exclusive. Rather, these needs must and can co-exist. 
Regulators need to recognize that there will always be opposition to 
infrastructure development by special interest groups. While such 
groups may raise issues of concern for consideration, regulators must 
weigh these concerns against the need for electric infrastructure and 
strike a balance where new infrastructure is allowed to be built while 
at the same time protecting the environment. Further, we need to work 
together to better educate the public in regard to the need for 
infrastructure development. SDG&E fully supports working with community 
groups and holding open stakeholder meetings for the exchange of ideas 
as we have demonstrated with our public outreach efforts on the Sunrise 
Powerlink.
    In summary, we must all work together to do the right thing for the 
public benefit. What we need from you is your support and your 
commitment to remove any unreasonable obstacles, and to send a clear 
message to all federal agencies to place a high emphasis on supporting 
new energy infrastructure that is needed to serve the future needs of 
our consumers. As we say in San Diego, ``we are serving you today and 
planning for tomorrow''.
    Thank you again for the opportunity to speak today.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Avery, for your testimony. I 
appreciate that.
    I would like to get a comment from the panel, first of all, 
because of a statement made about the width of these corridors. 
Mr. Willis, you had referred to a 3,500-foot width where I 
guess through the Siskiyou-Cascade region that there may be one 
existing that is now 200 feet wide. Maybe we can get an 
explanation from our gentleman from the Department of Energy on 
the need for the 3,500-foot width, and is that consistent with 
every easement being proposed in this new energy plan?
    Mr. Meyer. The team agreed on a 3,500-foot width as the 
fundamental approach. We recognize that when you are dealing 
with specific areas that you may want to think about 
alternatives to fit the particular circumstance. But I think it 
has been pointed out earlier that when you are talking about 
co-locating facilities within this corridor you do need 
considerable width. So I don't encourage people to think that 
we can scale down a whole lot from that 3,500 feet. I think in 
some cases we might have to go wider.
    Mr. Radanovich. Now, what would necessitate a wider, is 
this the size of the towers or the lines----
    Mr. Meyer. No.
    Mr. Radanovich.--physically or is it a fire danger or?
    Mr. Meyer. The fire danger is a good example, yes, if why 
you might want to a wider separation.
    Mr. Radanovich. Mr. Willis, you mentioned in your testimony 
about the--this is easements over public land in order to get 
some movement of electricity, and yet the description of all 
the different--you listed, quite effectively I think, in your 
presentation every kind of public land that is out there. If 
you count all those up and using my home state of California as 
an example, there is not much land available to be able to move 
energy into California.
    Do you say go around it or do you not support the concept 
of this Frontier Line, and if you do, are you saying you just 
don't want it on the Cascade-Siskiyou region? Maybe you can 
enlighten me a little bit on that.
    Mr. Willis. Mr. Chairman, I am here this morning to point 
out a very important biological area that the line needs to 
avoid because I think there is serious reasons that prudent 
planners would want to avoid it. I am not an energy expert, and 
it seems you have a very daunting task.
    I think I have a very general responses in that, as I said 
in my written testimony, I would like to see a lot more 
leadership from Congress on conservation of energy, on 
reduction of consumption, and examining the whole can of worms 
that that opens up.
    I think there is a fundamental question as when is this 
growth going to stop, when is this energy debauch, if you will, 
going to stop, and what will be left when it does. It seems 
that we take as self-evident that the purpose of human beings 
is to consume energy.
    I come from a perspective that says the purpose of human 
beings is to be stewards of creation, and I would like to see 
that reflected in the congressional energy policy a lot more. 
That is a very broad statement.
    Mr. Radanovich. Well, let me ask you this question because 
as I look at the--and if you know anything about California, 
which I am sure you do, there is a spine that goes down the 
eastern part of California. Almost all of that is public land.
    Mr. Willis. Mr. Chairman.
    Mr. Radanovich. No, I am sorry. But if you don't support a 
means of getting electricity over the Sierras into California, 
the only other place is the ocean, and I know that California 
is having a heck of a time getting any type of L&G facility off 
the coast of California to deliver natural gas. As you know, 
electricity generation in California is becoming more and more 
and reliant on natural gas. There is no support for doing that 
either.
    You can't bury your head in the sand when the population is 
increasing in California and the electricity demand has gone 
up. You have to be able to get it somewhere.
    So if you are here to say you just don't want it in 
Cascade-Siskiyou, that is fine, but the fact of the matter is 
we have to get them somewhere, and it concerns me because there 
is a lot of public land up in the Sierras, all up and down from 
north to south along the eastern part of California, and it is 
going to have to come somewhere cross there.
    I would like to hear, and I will say this and then move on 
to Mrs. Napolitano, I don't know that there is any project for 
domestic development, energy development in California outside 
of wind and solar that a lot of--I don't know of one that an 
environmental group will support, and this really concerns me 
because then the alternative is always conserve, conserve, and 
I would like to see just one energy development project in the 
United States that is not wind, that is not solar that an 
environmental group will support.
    Then I think I would love to do a hearing, if somebody 
would do that out there, I will do a hearing on conservation. I 
would love to be able to do that. But I have no knowledge of 
even one energy development project in the United States other 
than wind and solar that an environmental group like yours will 
support. Maybe you can identify one for me.
    Mr. Willis. Mr. Chairman, Oregonians are fond of saying 
they don't need to go to California because it is coming to us 
more and more every day.
    Mr. Radanovich. That is not the answer though. Do you 
support one, one energy development project in the United 
States other than wind and solar?
    Mr. Willis. I am not familiar enough with the bigger energy 
picture to give you an answer to your question.
    Mr. Radanovich. Thank you very much, sir. And I will defer 
to Mrs. Napolitano for questions.
    Ms. Napolitano. Thank you, Mr. Chair.
    There are numerous questions and one of them is not a 
question but a statement that I wish we had Mr. Desmond, the 
undersecretary of energy affairs from the California Resources 
Agency present on this panel, because I would have loved to 
hear what the state is looking at, and hope that we will ask 
for his input into this panel, into the hearing.
    Then I would like to move on to Mr. Meyer. Would the 
proposed Frontier Line between Wyoming and California use a 
corridor identified in Section 368, Westwide Energy Corridor 
process, and exactly what is the Department of Energy's role in 
the Frontier Line, if any?
    Mr. Meyer. We certainly support major projects such as the 
Frontier Line. That is, we recognize that there is a need to 
develop substantial quantities of new generation to meet future 
requirements. We certainly don't want to become involved in any 
prescriptive way about which kinds of projects should be 
developed and where. We think that is the role of other 
parties.
    But insofar as the role of the 368 corridors with respect 
to the Frontier Line project, we certainly--we have been, in 
preparing the map that you have seen, the corridors that have 
been proposed take into account inputs from industry sources 
about a number of potential projects, the TransWest project 
that was mentioned, the Frontier Line is another.
    There is an intent here to be sure that these corridors 
under 368 are indeed relevant to the kinds of developments that 
are most likely to come froward and be actively proposed and 
appear economically feasible from an investment point of view, 
and things of that kind.
    So there is that kind of fit or coordination, if you like, 
involved here.
    Ms. Napolitano. Great, and I have a question because in my 
days in the California State Legislature I sat on CPUC 
Committee, and I continually heard from the providers of 
electricity to California about recouping stranded costs. We 
have nothing in here that tells us what is going to be in the 
future for increase in rates to the consumer which will be the 
investment put in by the energy facilities to be able to recoup 
their investment in there.
    Now, everybody sounds fine. Who is going to pay for this? 
Is it the ratepayer? Is it a Federal government subsidy? Is it 
the groups themselves that are going out of the generosity of 
their heart pay for these and allow the ratepayers to be able 
to realize the savings because there is reference in some of 
the testimony about the millions of dollars that the California 
consumer will be benefiting from, and I ask anyone to tell me 
what project has ever resulted in a decrease in cost of energy 
to the consumer. Anybody.
    Mr. Avery. I would be happy to address that.
    Just two years ago, San Diego Gas and Electric put what we 
call the Miguel Mission No. 2 project in service. That project 
cost $50 million on the part of our ratepayers. That project 
reduced rates by $100 million a year. The Sunrise Power Link 
Project, a billion dollar project, will reduce rates to my 
customers by over $100 million a year.
    Ms. Napolitano. Translate that, sir, please, into what the 
consumer actually saw in their electricity bill.
    Mr. Avery. In the case of the Miguel Mission project, that 
equated to about a half a penny per kilowatt hour reduced 
costs.
    Ms. Napolitano. And how big is Miguel? Is that the only 
area that was affected?
    Mr. Avery. Actually, that was to serve the entire San Diego 
Gas and Electric area. We have so much congestion on our 
system, and just like congestion on the interstate highway 
system----
    Ms. Napolitano. Right.
    Mr. Avery.--where we have the inability to move energy from 
lower cost power plants from one location to another, the 
advance or the increase in transmission infrastructure allows 
us to move the energy around so much more efficiently that we 
can actually save money.
    Ms. Napolitano. Sir, I understand the need for increasing 
the transmission ability, capability, and upgrading the 
infrastructure. I understand that.
    My concern is the cost to the ratepayer eventually. Maybe 
not now, but in the future, and Mr. Avery, would you mind 
addressing that? Have you looked at that?
    Mr. Avery. The addition of transmission facilities is a 
very small part of the cost of delivered energy to consumers, 
but it has an enormous impact in terms of both the reliability 
benefits and the economic benefits that it affords. That is, it 
enables generators to serve from lower-cost generation than 
would otherwise be serving the consumer.
    So in that sense, transmission lines are a bargain. Another 
way to think about this is that it in some ways it is difficult 
to over-invest in transmission because the upside, if you spend 
too much on transmission, it is only going to cost consumers a 
little bit. If you spend too little, they pay very dearly for 
it.
    Ms. Napolitano. Well, I don't see any consumer group here 
other than the gentleman, Mr. Willis, who can really--and he is 
advocating for the northern part. My concern is for all of 
those that are going to be impacted and served by. Mr. Chair, I 
will defer and have other questions.
    Mr. Radanovich. Thank you, Mrs. Napolitano.
    Mr. Udall, did you have any questions?
    Mr. Tom Udall. Thank you, Mr. Chairman.
    Earlier on I asked, I think, in my opening the question is 
it fair to release carbon dioxide and mercury and other 
contaminants in Wyoming when this pollution would never be 
allowed in California.
    Can the witness from San Diego--excuse me.
    Mr. Avery. I am Mr. Avery.
    Mr. Tom Udall. Mr. Avery, could you put a plant like the 
plants that are planned--there are 31 coal-filed plants that 
are planned in the inner mountain west, and could you locate 
one of those in your district, in the area in Southern 
California around San Diego? Could you propose that now and get 
it approved through regulators?
    Mr. Avery. Not only could I not approve or propose in San 
Diego, I could not propose it in Wyoming. The State of 
California would not yet me enter into a contract for power 
from Wyoming, from Utah, from New York if it is going to be a--
I am going to call it the old science technology.
    The only way the State of California would let me enter 
into a contract with any power on the Frontier Line or any 
transmission line is if it would be meeting the same 
environmental standards that would be acceptable in the State 
of California, which is why when we look at the Sunrise power 
link, or the Frontier Line, we are looking first at renewable 
energy, which does not pollute, and the primary purpose of 
doing that is so I can shutdown older polluting power plants 
that are located on the coast.
    Mr. Tom Udall. Now, the Governor of California has talked 
about the plants that are--just like you have--the plants that 
are going to be planned are going to be near zero emission. 
Yes, I believe his energy person said something along the line 
that we were going to achieve--Desmond said we are going to 
achieve something near zero emission. So he is advocating what 
you are advocating.
    Then we have the Governor in Wyoming saying near zero 
emissions is just not realistic. We would all like to have it, 
but it is not going to happen.
    What we are talking about here is we have the technology. I 
mean, it is true, isn't it, that if you gasify coal you can get 
to near zero emissions? Is that correct?
    Mr. Avery. Yes, that is correct.
    Mr. Tom Udall. And is that what is planned in these 31 
plants?
    Mr. Avery. At this point in time no plants have been 
planned as it relates to serving the State of California. But 
before California utilities will be allowed to enter into 
contracts that will allow for the development of new power 
plants, they will have to meet that standard. Otherwise I will 
never be allowed to enter into contracts to buy that power.
    Mr. Tom Udall. So, Mr. Avery, have you put that word out to 
the folks that are out there doing this planning? Because they 
are in the permitting process right now, they are getting ready 
to build these plants. They are not using the technology that 
would get us close to zero emissions, and indeed they are 
building the plants. There is not a need in these states for 
this electricity. This electricity is going over to California, 
so there is a big disconnect here is the way I see it.
    I mean, the Governor of California and you and others can 
make pronouncements that you wouldn't buy it, but the plants 
that are being built in these states and that are being planned 
in these states, they are using the older technology. They are 
not using near zero emission technology.
    So what is your answer to that, and what are you doing to 
aggressively get out there and let these people know we are not 
going to buy it if you are producing it in a dirty fashion?
    Mr. Avery. Well, as I mentioned, in our balanced energy 
portfolio approach we do solicitations for energy from our own 
regions, from neighboring regions, and from far away, and in 
our discussions with all potential developers we make that very 
clear. But first and foremost we pursue renewables. We see that 
there is a wealth of opportunity elsewhere in this country, 
outside of the San Diego region, where there is no reason why 
we can't increase or dependence on renewable energy, and get 
away from the use of fossil fuels. That doesn't mean we have to 
abandon them completely.
    We believe that there is an opportunity to develop new 
technologies, advance new technologies so we can make new power 
plants cleaner than old power plants. We don't see those as 
being contradictory with the use of the power. We just think 
that it has to be cleaner.
    I can tell you right now in every discussion I have had 
with every California legislator or regulator, it is don't even 
bother looking east if it doesn't meet our standards, and every 
utility fully understands that.
    Mr. Tom Udall. Ms. Nelson, how will you decide to 
compensate tribes when energy corridors cross tribal lands?
    Ms. Nelson. Well, I guess we have a policy in Utah when it 
comes to energy development that we engage all stakeholders, 
and we work very closely with the tribes to try and identify 
what their needs are, and what their needs are both in terms of 
energy delivery and also in terms of economic development.
    So we very carefully consider those elements when we make 
our evaluations, and we work very closely with them, and we are 
increasingly making efforts to work with them to identify what 
their needs are so that they can realize their energy and 
economic development goals. So I would say in recent years our 
relationship with the tribes have improved significantly.
    Mr. Tom Udall. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Udall.
    I now recognize the very patient gentleman from Arizona, 
Mr. Hayworth.
    Mr. Hayworth. Thank you, Mr. Chairman, and to the 
witnesses, thank you all for being here. It is worth noting 
that I am honored to serve on the Subcommittee--well, actually 
both Subcommittees holding the joint hearing today, and 
especially water and power, and how interesting it is the 
abundance of water here in the east as the heavens open up over 
the past few days, and how we are all in need of power no 
matter the challenges we confront and the different points of 
view brought here.
    I think by unanimous consent, Mr. Chairman, we can all 
agree the West is best, and we appreciate all of you coming 
here today to offer your points of view.
    It will come as no surprise that I would like to direct my 
questions to my friend from Arizona Public Service, Mr. 
Chairman.
    Bob, thanks for coming back. I know it is a hardship 
leaving that 110 degree weather in the desert, but we 
appreciate you being here.
    Mr. Smith, if you would not mind, please give us a general 
overview of your experience with siting transmission lines in 
Arizona, working both with the Arizona Corporation Commission 
and the various Federal agencies of all involved in that 
process?
    Mr. Smith. Thank you, Congressman Hayworth.
    It is a pleasure to be here even if I did come into rain 
storms from Arizona. Do appreciate the opportunity.
    In Arizona, the Arizona Corporation Commission, or the ACC, 
has instituted a siting process that we found to be both 
effective and efficient for a couple of reasons.
    First of all, there is a line siting committee that reports 
to the Arizona Corporation Commission. There is the one entity 
in the State of Arizona charged with issuing a certificate of 
environmental compatibility for the entire transmission line 
route within the state.
    The siting committee consists of representatives that are 
from various state agencies, and that ensures that all the 
interests of the state are considered.
    Third, the process involves some timelines that in my 
experience for the last five years I have worked in planning 
and sited permitting transmission lines really brings these 
permits to resolution very quickly.
    With respect to the Federal agencies, we have had very, 
very good experience working with BLM to designate intra-state 
corridors, and in fact have utilized these corridors on several 
projects, and it has facilitated the permitting of these 
projects.
    The experience with the Forest Service has not been quite 
as smooth, probably because of lack of consistency between the 
various forests with respect to their requirements.
    Mr. Hayworth. Just to follow up, what has caused major hold 
ups in the siting process in the past, and is there a way we 
can avoid these problems in our attempt to open some future 
lines?
    Mr. Smith. I think better coordination between the Federal 
process and the state processes, and that is one of the things 
that I would hope would come out of the various provisions of 
the Energy Policy Act would be to ensure that the various 
studies, documents, reports that are prepared and the timing of 
those reports and review, that the process is facilitated, that 
you can go through the process parallel on both the state 
processes and the Federal processes.
    Mr. Hayworth. Mr. Smith, one of emerging area of 
contention, if you will, is something you touched on during 
your testimony when you stated that wider corridors that are 
currently being proposed are necessary to secure the 
transmission lines from the threat of wild fire.
    Now, we have seen in Arizona in recent days one of the 
challenges--euphemistically putting that--the challenges of the 
fire we saw in Oak Creek Canyon and I believe called the Brins 
Fire, and then some problems earlier up around Flagstaff.
    Could you relay for the panel why in your opinion these 
wider corridors are necessary, and specifically dealing with 
the events of recent days in Arizona, how wider corridors might 
help?
    Mr. Smith. Certainly. Traditionally I think we have had a 
balance of economic considerations, environmental 
considerations, and reliability considerations that 
historically have resulted in a number of transmission lines 
within a common corridor being placed fairly close together. In 
some cases, the only restriction is that you have enough of a 
spacing between the two circuits so that a tower falling over 
will not actually fall into the adjacent tower.
    What we are finding in Arizona, especially the last four or 
five years, is that a lot of these long distance transmission 
corridors with multiple lines are in areas that are prone to 
forest fires, and when the lines are close together you can get 
either a requirement from the folks fighting these fires to 
take the lines out of service for their safety while they are 
trying to do their job, or in fact the smoke from the fire will 
actually get up into the lines and cause outages.
    If we are allowed to build these transmission lines with 
some more spacing, you can into a situation where you can 
keep--say there is two lines next to each other, you could keep 
one of the two lines in service while fire fighting activities 
are going on in the adjacent circuit, or maybe the fire itself 
has taken it out.
    The loss of two transmission lines, two major transmission 
lines into a large load center is significant, and we have 
struggled keeping the lights on in Phoenix during some of these 
occurrences.
    Mr. Hayworth. Well, speaking of lights, I guess we have 
gone into red. I don't have any time to yield back.
    Mr. Radanovich. Your lights are red, pal.
    Mr. Hayworth. That is it. Thank you for the time, Mr. 
Smith, and panelists, thank you. And again, Mr. Chairman, thank 
you for your generous indulgence.
    Mr. Radanovich. Thank you, Mr. Hayworth, and I appreciate 
your interest in this subject.
    The Chair recognizes Ms. Herseth from South Dakota.
    Ms. Herseth. Thank you very much, Chairman, and I thank all 
the witnesses. I apologize for not getting here for your 
testimony. That tends to happen to many of us when we have 
ongoing other committee hearing simultaneously. But I did walk 
in at the end of Mr. Udall's questioning and the question posed 
regarding tribal lands, I believe, and I know that you are 
responding about the improvement in relations with different 
tribes across the country as it relates to a number of issues 
with these rights-of-way.
    I have heard from some of the tribes that I represent in 
South Dakota, I represent nine tribes, about some general 
concerns as it relates to right-of-way issues, and then just 
last month specifically from a tribe I represent about the 
Section 1813 in the Energy Policy Act of last year that does 
require the Departments of Energy and Interior to study the 
energy right-of-way issues on tribal lands.
    So Mr. Meyer, this review, coupled with a series of 
recommendations, is due to be submitted to Congress no later 
than August 7th of this year. Can you tell me if we are 
expecting the reports to be completed at that time?
    Mr. Meyer. We, and my colleagues from Interior, we are 
working very industriously on a draft report that we think will 
be responsive to the questions that Congress has asked, and so 
we look forward to delivering it to you.
    Ms. Herseth. So you anticipate that the first part of 
August we will be seeing even some just preliminary findings or 
assessments that are required by that report?
    Mr. Meyer. We will put out a draft report for review by the 
tribes and the companies before we produce a final report. So 
we are running into some challenging issues so far as schedule 
is concerned because the tribes and the companies are very 
interested in this report. They would like very much to see a 
draft now.
    But if we go through that cycle, we may have difficulty 
meeting the August 8 deadline.
    Ms. Herseth. I appreciate your candor in letting me know 
how it is proceeding.
    Mr. Meyer. Yes.
    Ms. Herseth. Of course, the Administration and so many of 
us on this Committee, you know, we recognize that tribal lands 
are completely unique, and I think that when we talk about the 
consultation requirements built into different legislation 
certainly your counterparts at the Department of Interior, I am 
curious as to--you know, if you can share some ideas of how you 
plan to deal with tribal lands in the corridor designation 
process. You know, have we begun a consultation with different 
tribes that may be affected in the Southwest or in my part of 
the world?
    I am just curious as to where we are in the consultation 
process because the map that was submitted here for this 
hearing includes some gaps and I can't help but noticing, even 
though South Dakota is not on the particular map I was looking 
it, it does seem that the lines stop when you get to the 
boundaries of tribal lands. And so I am just curious if you 
share some of initial ideas of how we are going to deal with 
land in trust?
    Mr. Meyer. Well, the corridors under 368 are on Federal 
lands, and do not affect or pertain to the tribal lands. Now, 
we are talking in consultation with some tribes who are 
interested in having corridors on their lands, and so that 
means, at least in discussion terms, talking about a corridor 
on Federal land that would then abut a matching corridor on the 
tribal lands.
    But one of the issues that we are concerned about is that 
we want to be sure that there is an alternative if at all 
possible so that companies who were seeking to use that 
corridor on the Federal lands would not be faced with no option 
but to go through to cross the tribal portion.
    So we want to avoid that circumstance, but at the same time 
if tribes are very interested in having corridors on their part 
of a route, we think naturally we want to try to be 
accommodating if we can.
    Ms. Herseth. Just to be clear before my time runs out, so 
for those tribes that have expressed an interest in having the 
corridor, you are working sort of one on one with each tribe, 
but you haven't set up a task force or an advisory board of any 
kind that deals with this more generally, perhaps with a tribal 
leader as a designate on a task for or advisory board? Are you 
dealing with it specifically as well as more generally in the 
process through some sort of task force or advisory board?
    Mr. Meyer. Well, we are dealing with it pretty much on a 
tribe-by-tribe basis. There is not a large number of tribes 
that have expressed interest in having such corridors on their 
lands, and it is necessary to deal with these questions very 
specifically in terms of the particular situation.
    Ms. Herseth. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Ms. Herseth.
    Mr. Kildee, any questions?
    Mr. Kildee. Well, I just came over primarily to make sure 
that as we deal with this that we respect the sovereignty of 
the tribes, and that is my reason for my presence today.
    Mr. Radanovich. All right, thank you, sir.
    I did want to ask Dr. Nelson, if you could in general give 
me an idea--you know, we have the energy bill now, and it calls 
for the corridors. How can the Federal government further help 
the states move forward with this line, and to help expedite 
the process?
    Ms. Nelson. Well, thank you, Mr. Chairman, for that 
question. I think it is an important one.
    First of all, let me just say that the Energy Policy Act 
has been very effective, and we appreciate many of the aspects 
of the Act. We think that it is helping us move forward on 
energy efficiency. Utah has one of the, I think, most 
aggressive energy efficiency plans and policies in the West, 
and we are looking to the Energy Policy Act to support us as we 
achieve those initiatives.
    We also think that it has allowed us the opportunity to 
increase renewables, and that a fundamental part of getting 
more renewables on line and improving our overall air quality 
profile, including green house gas emissions, is going to be 
bringing on additional renewables and promoting those very 
cleanest technologies which impact the environment, the Energy 
Policy Act also supports, as I mentioned previously with coal 
gasification. It is infant technology, and what we are going to 
be looking at are bringing what might be considered prototype 
plants, and there are concerns about are they going to be 
available similar to traditional plants.
    So with that said, I would encourage that there be 
continued incentives for integrated gasification combined cycle 
and other advanced coal technologies because I personally 
believe that our energy future is going to be made up of 
increased energy efficiency, improved conservation, advanced 
coal technologies, and a lot more renewables.
    So continued support for renewables through the production 
tax credit I think is going to be essential, continued support 
for IGCC, and I think continued support for this 368 process. 
As I mentioned before also, having that increased certainty 
about corridor designations, about siting not only benefits the 
development of this project, it also helps us to better 
understand how we are going to engage in mitigation, and we in 
the West, I think, have become very, very good at environmental 
mitigation, looking at wildlife habitat, and enhancing the 
mitigation that we presently do when energy developments take 
place.
    So I think the IGCC support, just in summary, continued 
support for renewables through the production tax credit, and 
also continued support for the 368 process is going to be 
fundamental because people will view that all of these things 
can be brought on, and that we are very creative and in terms 
of our ingenuity, and we can develop transmission line that 
will allow us to realize all of our objectives.
    Mr. Radanovich. Dr. Nelson, is there a target date as to 
when clean burning or gasified coal is going to be on board, 
and will increased funding via tax credits, more of that help 
us get their faster?
    Ms. Nelson. I do believe that incentives can help us get 
there faster, absolutely.
    In response to Congressman Udall's issue, it is really a 
matter of timing. It is going to take awhile for the technology 
to come up, and let me just speak for my state. We need new 
base load facility in 2012, so very, very soon, and we are 
actively engaged in a process right now to identify what that 
facility will look like, and we are considering a coal plant, 
and the serious discussion taking place now is whether or not 
we can have that be an integrated gasification combined cycle 
plant.
    A limiting factor is transmission, where that plant will be 
located. So getting the transmission on line is going to help 
to facilitate getting these technologies in place because if 
they know that if they build the plants, that that power can be 
delivered to loads and allow us for bringing on other resources 
that can balance when there might be some capacity shortfalls 
from those plants, I think is going to be critical as we move 
forward to this prototype phase.
    Mr. Radanovich. Thank you very much. One more question 
regarding the easements because I agree, it seems to me like a 
3,500-foot wide easement is a bit much, at least in my limited 
knowledge. Perhaps our gentleman from the Department of Energy 
or Dr. Avery or anybody else here can kind of give me an idea 
of how did we--how did we land on that number, and let us talk 
about what the easement looks like?
    Does that mean that there will be bare ground between both 
of the--you know, both ends of that easement? Do you clear cut 
everything in that easement, or is it an easement--is this 
something that is supposed to serve power needs for the next 
100 years, for the next 500 years? How do we go about 
determining the width of those easements? Someone want to tell 
me?
    Mr. Meyer. Well, there is such ecological diversity in the 
areas that you are going through that it is very hard to come 
up with a uniform answer that will satisfy the kinds of 
requirements that might be involved.
    The North American Electric Reliability Council sets 
requirements pertaining to transmission lines and rights-of-
way, and that his the place where one would begin in terms of 
what requirements need to be met with respect to transmission 
lines.
    But the co-location with gas pipelines raises questions of 
a different sort, and these are challenging questions, and I 
don't mean not to be responsive to your question, but it takes 
a great deal of--it will take some fine tuning corridor by 
corridor to come up with the appropriate response to the--the 
notion of the 3,500 feet is--it is a number that the agencies 
identified in the course of their analysis thus far, and as a 
group we are comfortable with that, but we certainly don't mean 
that that is going to be adopted on a rigid basis.
    Mr. Radanovich. The question for all witnesses.
    Mr. Smith. Yes, if I might add a little bit to that. One of 
our concerns, and logistically I think you probably have to 
work with one number. If we had a situation where we believed 
we needed to build one transmission line in the future, and 
that was all we needed to build, and there was nothing there, 
then a fairly narrow corridor would probably work. But a lot of 
these corridors are corridors where there are already a number 
of existing facilities, and you may have a facility that has 
some kind of engineering issue on either side of it that would 
make it not feasible to co-locate another facility right next 
to it.
    So you need the flexibility to add facilities, to have the 
spacing that is required for reliability, such as the fire 
issues we have talked about, and just generally speaking to say 
the maximum is going to be 3,500 feet. We don't believe that is 
enough.
    Mr. Radanovich. You don't believe it is enough really? In 
your view how wide should it be?
    Mr. Smith. A lot of the corridors that area already 
designated through the process I believe were 5,000 feet.
    Mr. Radanovich. Oh, is that right?
    Mr. Smith. Yes, we have asked for a mile.
    Mr. Radanovich. You know, last month we had a hearing on 
problems with managing vegetation and rights-of-way on Federal 
land, and there were some serious problems mostly in the way of 
fire hazards that were of concern because the narrow easements 
or some that were not wide enough in order for them to be 
maintained properly for fire protection. But getting to the 
number, I think, is kind of interesting.
    Anybody else had a comment on that?
    Mr. Avery. I think, as you look at the footprint, people, I 
think, take away the perception that if you have 3,500 feet 
that there are facilities covering that entire region. I don't 
think that is the case. I think what happens is you see 
individual discrete corridors within the overall corridor 
planning area.
    If I look at our case, we have corridors that run through 
Camp Pendleton, and we have multiple transmission facilities on 
those corridors. But the width of the corridor itself where the 
physical facilities are, the width of a tower and the cross-
arms on the tower might be 30, 40 or 50 feet. Yet that sits in 
an area that may be over 1,000 feet wide, and part of that 
setback for the overall region is to ensure that other things 
aren't built near the facilities.
    In other words, it is important that if you are going to 
have an electric facility, an overhead facility, that you don't 
build anything else in close proximity to it because of the 
dangers associated with that, and the dangers aren't 
necessarily something that are brought about because of the 
physical construction of the transmission facility, they are 
brought out because the transmission lines that run from tower 
to tower they blow in the wind, they sway outward, and you have 
to make sure that you design the facilities so that if you have 
a long span that maybe goes over a canyon, that the facilities, 
if they do blow out in heavy winds don't come in close 
proximity to any kind of other structures.
    So it is not just something where you look at a large 
corridor and assume that there is going to be something 
covering that entire area.
    The other thing you want to do, as we have heard from other 
members of the panel, the notion that you want to make sure 
that you have some protection in width for reliability 
purposes. If I look again just to my own back yard in San 
Diego, in October of 2003, we had one-third of the county 
burned down, and in that situation we had three major fires. 
Five total fires going on in the county at once, and we lost 
several of our transmission facilities through that process, 
and we lost a significant portion of our load because of that 
process.
    Had we had just one more corridor coming into San Diego we 
would have never been in jeopardy of losing the city. And so 
the idea of having multiple transmission lines right on top of 
each other and trying to squeeze it down to the narrowest area 
doesn't help us for reliability purposes. In fact, the criteria 
that we operate under for the WECC system and the NERC system 
mandates that we separate the lines for reliability purposes.
    We talk about the cost of this, and we talk about the 
future of this. If we look at just the cost of what happened in 
2000 and 2001 with the energy crisis, the billions of dollars 
of damage that it did to our economy, we could have paid for 
these transmission lines several times over just in that one 
occurrence.
    You heard the notion that perhaps the transmission is a 
function of what it does to rates. It is such a small component 
of rates. But when it is not available, what it does to rates 
is astronomical. I talked about the congestion, that it sits in 
the system.
    Billions of dollars are spent every year in this country 
just because of a lack of infrastructure. This infrastructure 
would pay for itself in a matter of--in several cases, in a 
matter of months or a couple of years. It is not something that 
sits there and we worry about it being a burden on the 
customer. The benefits are just overwhelming to the customers.
    Thank you.
    Mr. Radanovich. Thank you, Mr. Avery, I appreciate it.
    Mrs. Napolitano.
    Ms. Napolitano. Thank you, Mr. Chair. I am going to have to 
excuse myself for a few minutes because I have a markup in 
another committee.
    But Dr. Nelson, what is the breakdown of coal versus clean 
coal?
    I know that 20 percent of the California energy needs to be 
renewable. Is clean coal considered part of that? If not, will 
the rest of the power running on the line be clean coal or some 
mix of existing coal-fired power in clean coal and renewables? 
And will you have enough percentage of the renewables on line 
in time to serve as a Frontier Line?
    Ms. Nelson. I guess I can't address specifically what the 
breakdown will be, but let me just say that this project is 
envisioned by our Governors to potentially be a 12,000 at 
completion potentially, a 12,000 megawatt deliverable facility.
    Ms. Napolitano. I am talking about the renewable portion of 
that required by California.
    Ms. Nelson. Yes. And our Governors believe that there is 
potential for about 50 percent of that capacity----
    Ms. Napolitano. I am not talking about capacity. I am 
talking about renewables.
    Ms. Nelson.--to be delivered by renewable power, and that 
this in fact can help California meet its objectives. Not being 
from California, I can't specifically address what the 
California issues are, but I can support that the line is 
envisioned to allow for substantial renewables which we think 
can help all of the states within the region.
    Consumers want renewables, and we think that we can----
    Ms. Napolitano. Are you aware--I am sorry, ma'am, but I 
have to go. But clean coal, are you aware that clean coal is 
not considered renewable energy resource for California? It is 
not.
    Ms. Nelson. I understand that, yes.
    Ms. Napolitano. OK. I guess, I am not--with the rest of the 
power running on the line be clean coal. I mean, I am trying to 
figure out how the energy delivered to California is going to 
meet California's high requirements.
    Ms. Nelson. Madam Congressman, I might defer to Mr. Avery 
because I think that he might be in a better position to answer 
this question because he and his company will be specifically 
engaged in securing the contracts that will help California to 
meet their----
    Ms. Napolitano. For all of California?
    Ms. Nelson. Well, at least for his customers, but I think 
his knowledge of what California policy is places him in a 
better position to answer that question.
    Ms. Napolitano. OK. And as you consider the answer, sir, I 
also wanted to know who is paying for the actual construction 
of the Frontier Line for all of you. I would like that for the 
record.
    Mr. Avery. OK. With respect to the notion of clean coal 
versus other coal resources, the president of the California 
Public Utilities Commission has made it very clear to me and to 
all of my counterparts at the other investor-owned utilities 
don't even think about bringing anything across this line if it 
is coal unless it is clean coal. So from our standpoint, I 
don't see any other option. I don't see anything but clean coal 
is flowing across that facility.
    With respect to renewables, I do believe there is 
opportunities to advance the development of renewable power for 
the whole Southwest because of facilities such as this, and 
that is what we are looking for. When we look beyond our 
conventional borders, we are looking at renewable resources 
first.
    Ms. Napolitano. OK, if I may then, do you know where those 
clean coal plants will be developed? Because there is no 
mention of them and in these May 15 San Francisco Chronicle 
article it indicates that 31 of the coal-based proposals now in 
the very stages of permitting processes, none currently plan on 
using the advanced technology.
    Mr. Avery. And at this point in time I would put this akin 
to the space program in the 1960s. If we don't start the 
studies, we don't start the work, and we don't look at the 
opportunities, they will never come about. But if California is 
going to continue to be a leader, we have to put projects like 
this on the table, study it, and determine the feasibility of 
the----
    Ms. Napolitano. But that still doesn't answer my question. 
I am sorry, but I have a markup that I have to go to. And my 
concern is that we are saying that California has these great 
standards because you are the leader. Yet I have not heard of 
anybody saying that they are going to build clean coal plants. 
All I have seen and I have a map of the different coal-fired 
power plants proposed, and none of them actually stated they 
are going to be clean coal.
    Mr. Avery. Yes, I understand that. But none of them are 
looking to California and talking to me. None of those parties.
    Ms. Napolitano. I know it is too early, and I am sure that 
that is something that is going to have to be considered, but 
who will be financing the construction of the Frontier Line, 
anybody?
    Mr. Avery. The initial stage of the process is to study the 
feasibility. Once we complete the studying of the feasibility, 
we will then look at the right way to look at cost allocation. 
It will be across the beneficiaries. If power if flowing to 
California, California consumers will pay for that portion. If 
power is flowing to other states, those other states would pay 
for that portion.
    Ms. Napolitano. I am talking actual construction.
    Mr. Avery. I am talking about the actual--oh, you mean the 
actual construction of the facility?
    Ms. Napolitano. Correct.
    Mr. Avery. At this point in time we haven't even started 
talking about that.
    Ms. Napolitano. Not defined. Great.
    Well, where will the wind farms be located, and is the 
planning underway now, and how do we know the projects will 
ever be built?
    I know San Diego has a ton of them.
    Mr. Avery. I am sorry. That we have a ton of?
    Ms. Napolitano. Wind power, wind farms.
    Mr. Avery. No, actually we only have two wind projects we 
are participating in. We are trying to advance those into a lot 
more. We go out--the approach that we take is a solicitation 
for energy. We go out to the open competitive marketplace. We 
ask everybody and anybody to bid.
    Once we get those bids in, we then assess the feasibility 
of them. Can they actually finance? Can they actually get their 
sites? Can they permit? And then we take all of that back to 
actually a review group made up of different stakeholders, and 
then the California Public Utilities Commission. Only at that 
point in time do we then actually enter into contracts.
    So at this stage it is still too early to determine where 
those wind projects will be.
    Ms. Napolitano. Now, one of the things that crosses my 
mind, of course, we talked about the conservation has not 
thoroughly been addressed, but my other questions would have to 
do with the cost of clean versus ``dirty'' energy, and I 
realize that it is more expensive to build the clean coal 
plants, but what is the difference in cost between the two that 
makes it so onerous for us to consider doing those up front 
instead of having to worry about how else are we going to make 
up that percentage?
    Ms. Nelson. I could just briefly comment on that if you 
would like.
    Essentially the cost difference may not be that 
substantial. That may not be the major impediment. The biggest 
impediment, and I am not trying to marginalize that, there is a 
cost differential, and I think it depends on the study being 
done what that differential looks like. The biggest issue is 
the availability of the plants once they are on line. There 
have been no major large-scale coal, and when I--I am going to 
define it as coal gasification plants that have been built.
    So when we are looking at these very large plants, and none 
have been built, and we are looking at 500 megawatt plus 
plants, and you are not sure that it is going to be available 
like a traditional coal plant which might be available 90 
percent of the time, and maybe you are thinking this plant is 
only going to be available 80 percent of the time or 70 percent 
of the time, and so there is real uncertainty around the 
availability, and that poses real risk, and that translates 
into real cost for customers. So that is a major impediment so 
you have to provide other ways to meet that demand if in fact 
that plant becomes unavailable.
    Ms. Napolitano. Thank you, Mr. Chair. Thank you very much 
for your indulgence.
    Mr. Radanovich. Thank you, Mrs. Napolitano.
    Ms. Napolitano. I will submit other questions for the 
record.
    Mr. Radanovich. Thank you, Mrs. Napolitano.
    Ms. Herseth, did you have any questions? Oh, I am sorry. 
Excuse me, Tom. Please.
    Mr. Tom Udall. Thank you, Mr. Chairman.
    Mr. Chairman, the maps we have up here are very sketchy in 
terms of the lines and where they run, and they actually just--
they end in some places. I mean, I am looking up here in 
Oregon, and there is a tribe, there is a big piece of purple 
tribal land, and the line goes up and then it just disappears, 
and it comes out the other side. I mean, it would be really 
helpful if we could get some maps that would detail where we 
are talking about these lines going.
    I know the Department of Energy and the Bureau of Land 
Management have come up with these, but it looks to me like on 
two of these areas you have clearly lines, that is the only way 
it can come in. You have a big piece of tribal land and it 
comes in one side, and it comes out the other, and it is 
portending like you can go through this piece of tribal land 
without actually drawing a line.
    I don't understand what is going on, but if any of you 
could supplement the record on that it would be very, very 
helpful.
    Mr. Meyer. The area that you are talking about in Oregon is 
the Warm Springs Tribe, and there is very active discussion 
with the tribe. The tribe is interested in having a corridor on 
their land, so that is being worked out.
    Mr. Tom Udall. How about the tribe just to the east of 
Reno? There is a line right through their land there. It is 
over just to the east of Reno. It is in Nevada, I think, it is 
a big, long, oblong shape piece of land, and there is a line 
going directly through their land. Have they committed to have 
that through their land?
    Mr. Meyer. I will have to get back to you on that and 
provide further information.
    Mr. Tom Udall. OK, thank you.
    Mr. Meyer. I don't have that information now.
    Mr. Tom Udall. If you could supplement where--the most 
difficult thing I think for me sitting up here is being 
interested in tribes and being interested in sensitive Federal 
lands, wilderness areas, protected areas, is knowing where 
these corridors are planned, and with the maps that we have 
right here it is very difficult and hard to do that.
    Mr. Chairman, I am also disappointed that Mr. Desmond 
didn't show up. I hope at some point in the future we could 
have him come here because--and I hate to beat a dead horse 
here, but over and over again in his testimony and statements, 
I mean, he is the key point man for Governor Schwarzenegger, 
and here is a quote.
    ``The Governor's point man on energy, Joe Desmond, says we 
are focused on the advanced technologies that are near zero 
emissions. All of the plants that will be proposed will be 
high-tech plants that get to the goal of near zero emissions.'' 
Those are direct quotes.
    And yet when you look at the plants that are out there and 
the plants that are being planned and that are being permitted 
right now, and there are 31 of them, none of them are using 
coal gasification. So I hope that we will get an opportunity. I 
know he is on the witness list, and should have been here for 
him to explain where these plants are coming from. I mean, are 
they just going to pop up out of the blue, these coal 
gasification plants?
    Let me ask Mr. Willis a question. I didn't give him a 
chance to--is it fair to release carbon dioxide and mercury and 
other contaminants in states like Oregon and Wyoming when you 
are generating power, when this pollution would never be 
allowed in California?
    I mean, does that fit with your idea of being a good 
steward of what we have been given?
    Mr. Willis. No, sir, it doesn't.
    Mr. Tom Udall. Do you have any further comments on what was 
said, has been said here earlier? I mean, I think one of the 
things that you, and it seems to--you and Mr. Avery could 
agree, I mean, I applaud you, Mr. Avery, for saying, you know, 
we need to put the plants on the books, and we need to have 
goals, and we are looking at clean energy, and we need to have 
a level and a magnitude of research and commitment to this that 
we haven't seen since the Manhattan Project or the man on the 
moon, to break through some of these barriers.
    We seem to be stumbling along with this dirty coal 
technology, and yet planning for the big bold things and not 
doing anything about hooking the two up, but please, either one 
of you that----
    Mr. Willis. Well, the last thing I would like to--I would 
like to submit one more piece of information for the record. 
Perhaps Mr. Zachary could get it. It is a map of the high 
elevation connectivity, biological connectivity corridor 
between the globally significant Klamath-Siskiyou ecoregion, 
and the Cascades, and biological corridors, I would submit, are 
more important than energy corridors, and I hope the planners 
will take that into consideration along with more specific 
reasons besides that general point.
    And this corridor, again, has already suffered quite a bit. 
I-5 is already a major barrier to many species, and to put a 
3,500-foot or wider corridor bisecting this important 
biological corridor, which has been noted by the numerous 
documents and people and my testimony, would be a tragedy, and 
it will be tough to do for a number of reasons.
    Mr. Radanovich. That information submitted for the record 
if there is no objection.
    Mr. Tom Udall. Sure, that would be great.
    [NOTE: The map submitted for the record by Mr. Willis can 
be found at the end of his prepared statement.]
    Mr. Tom Udall. I don't know if Mr. Avery had a comment, but 
I am way over my time, and I appreciate the courtesies, Mr. 
Chairman.
    Mr. Radanovich. Did you want Mr. Avery to answer the 
question?
    Mr. Tom Udall. If he had any comment.
    Mr. Avery. I believe, and I think I have stated earlier 
that, first off, you are correct that the technology is just in 
its infancy stage, and you are probably correct that there are 
31 plants that are out in the permit process. If I take you 
back five years ago, there were probably 35 power plants in the 
permitting process in California that never got built, and I 
don't expect that--in fact, I do expect that if these power 
plants are not employing new technologies, that even if they 
get permits, they will never get built if their intention is to 
sell to California.
    I do believe that as we go through this process and we do 
the study work and turn this type of project, the Frontier Line 
into some level of reality, then I believe you will see a much 
higher degree of interest in actually advancing this 
technology.
    But that doesn't mean that there isn't still a wealth of 
opportunities for renewables that can be delivered across new 
corridors. And let me just take you again back to the Sunrise 
power link project.
    There are thousands of megawatts sitting idle just to our 
eastern borders that pollute a very small fraction of the 
amount or put out green house gases, a very small fraction of 
the amount of the power plants that we are depending upon in 
California today, and if transmission were available today, we 
could shut down those power plants. And when we hear about the 
notion that the biological science suggests that transmission 
or energy corridors and the biology are mutually exclusive, 
they are not. They are something that can actually work 
together to make improvements for both.
    If we could shut down these old, inefficient, polluting 
power plants for taking power from much more efficient 
facilities and renewable resources, everybody benefits.
    Now, I recognize that it means we are going to have to 
expand a corridor that may have a road to include a road and a 
transmission line, or it may mean that we may have to take a 
transmission line that is on a 60-foot corridor and expand its 
physical presence to 70 feet. I recognize that that may have to 
step cross Federal lands, and I recognize that there are groups 
that are going to be opposed to that.
    But we have to look at the bigger picture, and that is the 
benefit of our total economy, and I believe that if we can 
reduce pollutants, and we may have to expand across Federal 
lands, that ultimately those tradeoffs are worth it for 
everybody.
    Mr. Tom Udall. Thank you.
    Mr. Radanovich. Thank you, Mr. Udall.
    Ms. Herseth.
    Ms. Herseth. Thank you, Mr. Chairman.
    I see the potential for improvements in our energy 
corridors to present large opportunities in South Dakota. We 
have one of the best wind resources in the country, but one of 
the problems that we have had has been transmission. And so I 
do agree with Dr. Nelson's comments that if we can get new 
transmission on line, it helps facilitate the potential for 
other renewable energy development, and an investment in these 
technologies, and a willingness of investors to take that risk 
as well as advancing initiatives in Indian country for 
renewable energy development.
    So my question, Dr. Meyer, is, were some of the tribes that 
have expressed some interests and that you are working with, 
are some of them pursuing this in light of the fact that they 
see a win/win here for some of their renewable energy 
production, either solar or wind or otherwise?
    Mr. Meyer. I am pleased to say that there are tribes that 
are very interested in the development of wind resources, yes, 
and they are very cognizant of that and do want to pursue it.
    Ms. Herseth. I appreciate that, and again will be looking 
forward to seeing an expanded map here to include the Dakotas 
at some point, but I also just wanted to make the comment that 
I have heard Governor Schweitzer from Montana on occasion talk 
about coal gasification as well, and do believe that in light 
of what is happening in Beulah, North Dakota, that the 
technology has existed for some time; that there are ways to 
make these investments to improve the technology to take 
advantage of a significant resource, natural resource, and huge 
reserves in an environmentally friendly way, and believe that 
the transmission is a key component to achieving some of what I 
think with the questions and responses going back and forth is 
recognized to be mutually beneficial for the country, for the 
environment as well as for some of the rural and tribal 
economies that will be affected.
    So I thank the witnesses.
    Mr. Radanovich. Thank you, Ms. Herseth.
    Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. Just a follow up on my 
previous statement.
    Has there ever been any instance of a violation or 
intimidation of Indian sovereignty in the construction of these 
transmission lines, or is there anticipated any violation or 
intimidation of Indian sovereignty, Mr. Meyer?
    Mr. Meyer. We have not uncovered cases or situations in 
which the tribes have affected or where the tribes have not 
allowed continued use of transmission lines or gas pipelines 
that cross their reservation. So that there are cases where 
negotiations are in process and deadlines are set, and then not 
met for concluding those negotiations, but nonetheless the 
energy still continues to flow.
    Mr. Kildee. Well, I would hope that there would be a very 
careful consideration of that sovereignty. Very often 
sovereignty has been lost because of coal has been discovered, 
and for that reason sovereignty became very secondary and the 
wealth became primary, and I would think that the attitude and 
philosophy should be that has to be a sovereign-to-sovereign 
negotiation there, and that sovereignty be held in the highest 
level, and not violate it.
    Mr. Tom Udall. Would the gentleman yield?
    Mr. Kildee. I would be happy to yield.
    Mr. Tom Udall. Just to follow up on what Mr. Kildee was 
asking. I am wondering if the new law that was passed and the 
President signed with regard to energy. I know it had 
provisions in it in terms of transmission lines. Were there 
provisions in there that allowed Federal entities to just 
overrule tribal sovereignty when it comes to putting in 
transmission lines? What is your----
    Mr. Meyer. I know of no such provisions in the Act.
    Mr. Tom Udall. OK, thank you. I yield back.
    Mr. Kildee. Thank you. Thank you very much.
    Mr. Radanovich. All right, I thank the gentlemen.
    I do have a question for Mr. Avery and Mr. Smith. How much 
wind power could the Frontier Line and the TransWest Lines 
leverage?
    Mr. Avery. I think the potential is somewhat undiscovered. 
If I look at it from our standpoint, I would not anticipate 
that 100 percent of the line, but I could easily see 20 to 30 
percent of the line could be delivering renewable resources 
such as wind.
    Mr. Radanovich. Thank you.
    Mr. Smith. Yes, I think with TransWest Express, it is not 
really the capacity of the line that is at issue so much as 
what the market will do in terms of development of resources 
and then the technical ability to integrate the wind in with 
your system.
    Mr. Radanovich. Thank you very much. Any other questions of 
the panel?
    Ms. Herseth. Yes, Mr. Chairman. If I can associate myself 
with the comments of Mr. Udall and Mr. Kildee. I think as you 
can see it highlights the importance of the review and the 
recommendations that DOE and DOI need to come forth, I think, 
beyond just the individual tribes that you are negotiating with 
that have expressed an interest, but even further, to protect 
the sovereignty of tribes and of course identifying these 
instances where tribal leaders are trying to advance the 
production of renewable energies because that is a requirement 
under the Energy Policy Act of last year.
    I know that you have described some of the challenges that 
exist to submitting that report to Congress in early August, 
but I do think it highlights the importance. Our questions pose 
highly the importance of it, and so I hope you will take that 
back to your colleagues at DOE and we will certainly 
communicate with DOI the importance of moving that process 
forward to give us the assurance that we are seeking on behalf 
of the tribes that we may represent.
    Mr. Meyer. OK.
    Ms. Herseth. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Ms. Herseth.
    Any other questions of the panel?
    Mr. Tom Udall. Just one question.
    Mr. Radanovich. Tom. Mr. Udall.
    Mr. Tom Udall. Yes, one more.
    Mr. Meyer, your statement expresses confidence that you 
will be able to complete most of the environmental analyses 
within the programmatic phase of your corridor process. How 
will you be able to evaluate thousands of miles of alternative 
corridor routes in just a few months time?
    Mr. Meyer. I did not say that we would complete most of the 
analysis. I think we can complete a substantial portion of the 
analysis, and prepare the ground for the more specific analysis 
that will need to be done a particular proposals come forward.
    Mr. Tom Udall. So we are talking about more time than a 
couple of months then?
    Mr. Meyer. No. No. I am talking about the proposals that 
would come forth to site-specific projects in these corridors, 
and at that point project-specific environmental analyses would 
be needed before those projects would be permitted and 
approved.
    Mr. Tom Udall. Thank you very much.
    Mr. Radanovich. Thank you, Mr. Udall.
    Any other questions of the panel? If not, we will conclude 
this hearing.
    I do want to make a point that reality is that our 
consumers need more transmission, and I think the reality is 
that we can build new transmission and protect the overall 
environment at the same time. I think the Frontier Line is an 
example of that. I would encourage all those involved to 
accomplish those ends, and I want to thank the witnesses for 
being here, for your valuable testimony, and with that this 
concludes this hearing.
    Thank you.
    [Whereupon, at 11:57 a.m., the Subcommittees were 
adjourned.]

                                 <all>

</pre></body></html>
